<html>
<title> - PASSENGER RAIL: OPPORTUNITIES AND CHALLENGES FOR THE NATIONAL NETWORK</title>
<body><pre>[Senate Hearing 114-384]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-384

 PASSENGER RAIL: OPPORTUNITIES AND CHALLENGES FOR THE NATIONAL NETWORK

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY AND SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 23, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                          U.S. GOVERNMENT PUBLISHING OFFICE
22-128 PDF                        WASHINGTON : 2016                          


________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f7e0ffd0f3e5e3e4f8f5fce0bef3fffdbe">[email&#160;protected]</a>  
      
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 
                                 
                             ---------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY AND SECURITY

DEB FISCHER, Nebraska, Chairman      CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
JERRY MORAN, Kansas                  RICHARD BLUMENTHAL, Connecticut
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
RON JOHNSON, Wisconsin               EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
STEVE DAINES, Montana
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 23, 2016................................     1
Statement of Senator Fischer.....................................     1
Statement of Senator Booker......................................     2
Statement of Senator Wicker......................................     4
Statement of Senator Peters......................................     4
Statement of Senator Gardner.....................................     4
Statement of Senator Nelson......................................     6
Statement of Senator Ayotte......................................    29
Statement of Senator Klobuchar...................................    31
Statement of Senator Moran.......................................    33
Statement of Senator Blumenthal..................................    35
Statement of Senator Daines......................................    36

                               Witnesses

Knox W. Ross, Secretary-Treasurer, Southern Rail Commission; and 
  Mayor of Pelahatchie, Mississippi..............................     7
    Prepared statement...........................................     9
Timothy H. Hoeffner, Chair, Midwest Interstate Passenger Rail 
  Commission; and Director, Office of Rail, Michigan Department 
  of Transportation..............................................    11
    Prepared statement...........................................    13
Rick Klein, City Manager, La Junta, Colorado.....................    19
    Prepared statement...........................................    20
Joseph H. Boardman, President and Chief Executive Officer, Amtrak    22
    Prepared statement...........................................    24

                                Appendix

Response to written questions submitted by Hon. Dean Heller to 
  Joseph H. Boardman.............................................    45

 
 PASSENGER RAIL: OPPORTUNITIES AND CHALLENGES FOR THE NATIONAL NETWORK

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2016

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety and Security,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:50 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Deb Fischer, 
Chairwoman of the Subcommittee, presiding.
    Present: Senators Fischer [presiding], Wicker, Ayotte, 
Moran, Daines, Gardner, Booker, Klobuchar, Blumenthal, Nelson, 
and Peters.

            OPENING STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Good morning. I am pleased to convene the 
Senate Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety and Security for this hearing 
entitled ``Passenger Rail: Opportunities and Challenges for the 
National Network.''
    During today's hearing, members of this subcommittee will 
examine passenger rail systems in the United States, 
particularly those outside the Northeast Corridor. I want to 
thank Senator Wicker for requesting today's hearing on this 
important matter.
    I am pleased to see that we have a strong panel 
representing local and national passenger rail experts from 
across the country. In particular, I want to recognize Mr. Joe 
Boardman, Amtrak's President and CEO, who will be retiring on 
September 30 of this year. Mr. Boardman served as New York's 
Commissioner of Transportation, as well as the Federal Railroad 
Administrator before becoming the CEO of Amtrak. We appreciate 
his service and commitment to advancing freight and passenger 
rail policy in this country. Thank you, sir.
    Last fall, I had the opportunity to join Mr. Boardman on 
the Acela train from Washington to Baltimore. Sitting in the 
front locomotive provided an in-depth look at the operations of 
our Nation's passenger rail system. I enjoyed the experience, 
and it was particularly informative to witness an engineer in 
action at a time when Amtrak is seeking to implement Positive 
Train Control in the Northeast Corridor.
    Although passenger rail is important to the Northeast 
Corridor, Amtrak's management of rail networks throughout the 
Nation deserves our attention as well.
    I appreciate that our freight railroads, such as Union 
Pacific and Burlington Northern Santa Fe, generously work with 
Amtrak to coordinate and ensure movement of passenger rail 
service on their rail infrastructure networks throughout the 
country.
    My home state of Nebraska hosts the California Zephyr line, 
with stops in Hastings, Holdrege, Lincoln, McCook, and Omaha. 
This line provides service to Chicago, Denver, Salt Lake City, 
and San Francisco. According to Amtrak, in Fiscal Year 2015, 
total station usage in Nebraska amounted to over 53,000 people.
    Although Amtrak has made progress over the last several 
years, there are still some serious challenges facing the 
operation of Amtrak's assets and resources. A January 2016 
report from the Government Accountability Office found that 
Amtrak does not consistently report financial data across its 
business lines. This is hindering Amtrak's ability to 
demonstrate performance accurately. For example, the report 
found that Amtrak's Miami terminal was billed for snow-
shoveling costs incurred elsewhere on Amtrak's system. GAO 
noted that this may lead to a misallocation of resources.
    Additionally, Amtrak is looking at cutting its operating 
costs by nearly 4 percent. Revenue has been lost due to 
competition from other modes of transportation, lower gas 
prices, and weather-related incidents. As many here know, 
Amtrak faced a $307 million operating loss in Fiscal Year 2015.
    Without the adequate data and asset management, it is going 
to be difficult for Amtrak to address these challenges. I 
continue to be a strong proponent of performance-based outcomes 
in regulations and organizational management. I hope that 
Amtrak will work to implement a performance-based framework, 
informed by past data, to address financial and operational 
challenges.
    I look forward to hearing more from our witnesses as we 
discuss how to strengthen our Nation's important passenger rail 
network during today's hearing.
    Senator Fischer. And now, I would now like to invite my 
Ranking Member, Senator Booker, to offer his opening remarks.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much. I am really grateful 
for Chairman Fischer for hosting this and for Roger Wicker for 
working to make this possible.
    This is an important hearing, and the need for a robust 
nationwide passenger rail network is critical to our economy.
    Like Chairwoman Fischer, I want to take the opportunity to 
thank Mr. Joe Boardman for all he has done for Amtrak. Mr. 
Boardman announced that he will retire from his position as CEO 
in September after nearly 8 years of service. During his 
tenure, he has worked tirelessly to improve passenger rail 
service in the United States, and I am personally grateful for 
his work and contributions.
    We saw record-setting growth in Amtrak ridership, improved 
relationships with Amtrak's workforce, and unmatched passion 
and commitment to ensuring nationwide passenger rail service. I 
applaud your commitment to serving in such an important and 
demanding role and congratulate you on your retirement. I 
imagine you may want to go back to New York, but I think that 
New Jersey will have you if you want to go.
    Amtrak connects hundreds of U.S. cities and towns and 
carries more than 30 million passengers each year. Amtrak 
provides a critical transportation option for underserved 
populations at a time when other modes are leaving rural areas. 
According to the Department of Transportation, an estimated 3.5 
million rural residents lost intercity transportation access 
between 2005 and 2010 due to the contraction of intercity bus 
and air services in rural areas in recent years.
    Amtrak is also an economic generator for many communities, 
as I understand very intimately living in the Northeast 
Corridor. Trains on this line carry 750,000 passengers each day 
and move a workforce that contributes $50 billion annual to the 
Nation's GDP.
    Despite the importance of the corridor, the age and 
deteriorating conditions of this infrastructure threatens the 
sustainability of Amtrak's operating success and the future of 
the Nation's passenger rail network. Nowhere is the crisis more 
pressing than in the state of New Jersey where the 105-year-old 
Hudson River tunnels, badly damaged by Hurricane Sandy, must 
either be replaced or shut down sometime over the next two 
decades, which would create an Armageddon of traffic, 
congestion, and economic problems. In addition to this, we must 
replace the Portal Bridge, a two-track, 100-plus-year-old 
bridge that carries 450 trains each day between Newark and New 
York Penn Station.
    Shutting down the tunnels is a risk we just cannot afford. 
That is why I have worked with Governor Christie, Governor 
Cuomo, and Senators Schumer and Menendez to jumpstart this 
project and establish a new development corporation to oversee 
the Gateway Project.
    Through this committee's hard work on the FAST Act last 
year, we have begun to take on the challenge of bringing the 
Northeast Corridor toward a state of good repair and make 
important reforms and investments in that national network. And 
I really want to thank Senator Wicker for his leadership in 
this. He and I came together last year to introduce and pass a 
comprehensive passenger rail reauthorization as part of the 
FAST Act that balances these needs.
    Despite being from very different parts of the country, 
even though people look at Senator Wicker and me and think we 
are the same person we look so much alike, we both recognize 
the importance of rail service to our states and the benefits 
of nationwide service. If he shaved his head, we would be 
twins. We worked hard to ensure that both the Northeast 
Corridor and the national network can prosper, but this 
requires funding.
    I look forward to hearing from our witnesses and these and 
other issues that the Committee should consider as we work to 
improve passenger rail service in the United States. Thank you.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Senator Booker, and I appreciate 
your remarks. And it was a pleasure and an honor to work with 
you on the FAST Act.
    Here is the agenda as I would propose it. Senator Peters 
will introduce a guest. Senator Gardner will then introduce a 
guest. And then Senator Nelson will be recognized for some 
opening remarks, and then we will hear from the panel.
    Senator Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Senator Wicker.
    I would like to thank Senator Fischer and Senator Booker 
for inviting me here today to welcome Mr. Tim Hoeffner, the 
Director of the Michigan Department of Transportation Office of 
Rail and the Chairman of the Midwest Interstate Passenger Rail 
Commission.
    Mr. Hoeffner, I want to start, first off, by just thanking 
you for more than 35 years of service to the State of Michigan. 
I know the State and the Midwest region has benefited 
significantly from your wealth of knowledge and experience. And 
I am glad you could be here today to share your wisdom and 
highlight the important complementary work of current State, 
regional, and Federal efforts to advance intercity high-speed 
rail.
    I was pleased to read in your prepared testimony about the 
work of the nine-State Midwest Regional Rail Initiative and 
particularly the soon-to-be-completed Chicago-Detroit/Pontiac 
Passenger Rail Corridor Program, which will provide FRA with 
the information it needs to eventually support a future 
decision to fund and implement a major investment of this 
route.
    Personally, I just cannot wait until the day comes when 
Michiganders will be able to travel from Chicago at 110 miles 
per hour, which will cut the current five hour andirty-eight 
minute trip by nearly two hours and have about 10 daily trips 
do that as well. That is going to be an exciting time and will 
be transformative for our region when that occurs.
    High-speed rail can do wonders, we know, for our local, 
State, and regional economic competitiveness, and I for one am 
committed to make sure that the Federal Government continues to 
make sustained and reliable capital investments in passenger 
rail.
    Thank you again, Mr. Hoeffner, for your testimony today, 
and more importantly, for your tireless and valuable work that 
you do for us each and every day.
    Senator Wicker. Thank you, Senator Peters.
    Senator Gardner?

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman. And to Senator 
Booker I would just point out the great book placement at DIA 
in terms of the bookstore with United right there. The picture 
of you is much better than Wicker would be on the cover of 
that, so I mean, I am just going to say that.
    I want to thank Rick Klein and all of the witnesses today 
for joining us on this panel to discuss the importance of rail, 
passenger rail, high-speed rail, and many other significant 
issues before us.
    To Rick Klein from Colorado, City Manager for the City of 
La Junta, welcome to the Committee, welcome to the Senate, and 
it is great to have you here, served as City Manager for more 
than 16 years, La Junta City Manager. And of course the alma 
mater you and I share together, Colorado State University, the 
best school in the State of Colorado.
    Rick's leadership in La Junta has shown great gains. If you 
look at the job growth in La Junta, it is about 2.6 percent, 
which surpasses the national average of job growth in La Junta 
compared to the rest of the country. According to the La Junta 
Economic Development Office, manufacturers in this small rural 
southeastern Colorado town has added about 16 percent to the 
workforce in the past 12 months. So we have seen a 
manufacturing renaissance revitalization that we need to 
continue to work on in La Junta.
    But part of that, of course, is the instrumental role that 
you have played in the Southwest Chief in southeastern 
Colorado. And so we hope those passengers from Chicago will 
find their way down from Michigan, Chicago, over to 
southeastern Colorado through the southwestern part of the 
United States and making sure that we keep the southwest rail 
vibrant and vital through southeast Colorado.
    Running from Chicago to Los Angeles with three Colorado 
stops, the line is essential to keeping those rural communities 
on the map. And when a proposal to reroute the line out of 
Colorado was brought forward due to rising track repair costs, 
small communities in Colorado, Kansas, and New Mexico began 
diligently working together, thanks to Rick and his colleagues 
from across all three States, to find a solution.
    They faced the daunting prospect of $200 million for the 
necessary repairs involved, and everyone knew it would be a 
very difficult, uphill climb, but the efforts from Rick so far 
in the city have been rewarded. Over the past 2 years, more 
than $25 million has been awarded to the project by the 
Department of Transportation, and I have been proud to work 
along with my colleagues from Colorado in the Congressional 
Delegation to support those grant efforts.
    You know, one of the most compelling parts of Mr. Klein's 
testimony today will be the part where he talks about how there 
are three stops in Colorado, the Southwest Chief, and yet 
communities with no Amtrak stop provided grant-matching dollars 
to make sure that this service was still provided. And I think 
that is testament to the strength and the vitality of the 
region and the need that they recognize a healthy Southwest 
Chief.
    So thanks, Rick. Welcome to the Committee. And to all of 
you, thank you for being here.
    Senator Wicker. Thank you very much, Senator Gardner.
    Of course, it is my pleasure to introduce a fellow 
Mississippian. Knox Ross is an experienced and knowledgeable 
public servant who has worked on behalf of our state for a 
number of years in a number of capacities. I had the chance to 
spend some time with Mayor Ross last week during the inspection 
trip evaluating the restoration of passenger rail along the 
gulf coast. In a few moments, I am going to ask unanimous 
consent to show a short video from this event.
    As Secretary-Treasurer of the Southern Rail Commission, 
Knox Ross understands the potential for rail to transform an 
area. The Southern Rail Commission works to promote public 
safety, economic growth, and emergency preparedness along our 
rail corridors.
    Knox is also the Mayor of Pelahatchie, Mississippi. For 
those of you who have not heard of Pelahatchie or been there, 
it is near our State capital of Mississippi in Rankin County. 
It has a population of roughly 1,400. Pelahatchie is the 
birthplace of blues performer Rubin Lacey and is part of the 
famous Mississippi Blues Trail. The town also draws thousands 
of people every year for its Muscadine Jubilee. During Knox 
Ross's 15 years as Mayor, the town has undergone substantial 
economic growth and been recognized with numerous State and 
regional awards.
    In addition to serving as mayor, Knox as more than two 
decades of accounting experience. We are going to need that in 
this capacity, Mayor Ross, and most of that time spent running 
his own firm. He has received a Public Service Award from the 
Mississippi Society of CPAs, served as president of the Central 
Mississippi Planning and Development District, and served as 
president of the Mississippi Municipal League. So we are 
grateful to have Knox Ross sharing his expertise with us.
    And then also it is a pleasure to introduce Joseph 
Boardman, President and Chief Executive Officer of Amtrak. He 
served with distinction and we are sorry to see him retire 
early this fall. All panel members are familiar with his 
credentials, and Senator Fischer has already pointed out a 
great deal of them. So we are happy to have all four of these 
witnesses.
    I am going to now ask Senator Nelson to give us some 
opening remarks, and then without objection, we will see the 
short video.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. I just wanted to point out that Joe 
Boardman's public service started in 1966 in the Air Force in 
Vietnam, and he has been a public servant ever since at all 
levels of government. So we commend you for your service.
    The passenger railroad service has obviously played a 
critical role, and it should even play a more critical role in 
moving people from point A to point B in the future. This 
national network of routes, of which many have very low 
ridership, has connected rural areas, as well as big cities, 
and has been safe and has been efficient in 46 states. Today's 
ridership is stronger than it has been with 19 million 
passengers using the long-distance and state routes. As we 
urbanize, that ought to increase all the more because it 
becomes the preferable mode of transportation.
    We see that in Florida. For example, one of your most 
successful routes is the Auto Train. And some of the old names 
that you remember, the Palmetto, the Silver Service, the Orange 
Blossom Special, they are legendary.
    So I am very happy that the full committee included 
Amtrak's 5-year authorization in the broader transportation 
surface bill that we passed last year. As part of that law, we 
are also taking a close look at the options to restore and 
expand service in other parts of the country, including the 
gulf coast passenger rail service that was disrupted years ago 
by Hurricane Katrina. That is the route that would connect New 
Orleans to Tallahassee to Jacksonville and Orlando. Just last 
week you had one of those trains travel that route for the 
first time since 2005 to assess the rail line and gauge the 
interest in restoring passenger traffic.
    So thank you, Mr. Boardman. Thank you, Mr. Chairman.
    Senator Wicker. Well, thank you, Senator Nelson.
    I was on that train ride----
    Senator Nelson. Oh, you were?
    Senator Wicker.--along with--I went from New Orleans to 
Pascagoula, and Corrine Brown began with us and I think she 
went all the way to Jacksonville.
    Senator Nelson. Well, I tried to get on it, but Amtrak is 
so precise on the time. If I flew from Orlando to Pensacola, I 
could get to the train station in downtown Pensacola at 9:31, 
but the train departed at 9:30. And so that is commendations to 
Amtrak.
    Mr. Boardman. We would have waited for you, Senator.
    Mr. Ross. Well, we left Congresswoman Brown in Pensacola.
    [Laughter.]
    Senator Wicker. OK. Well, without objection, let us see the 
video about this famous train ride. So if our technicians could 
do that, then we will hear testimony.
    [Video presentation.]
    Senator Wicker. Now, let us hear from our distinguished 
panel. And we will begin with Mayor Ross.

        STATEMENT OF KNOX W. ROSS, SECRETARY-TREASURER,

              SOUTHERN RAIL COMMISSION; AND MAYOR

                  OF PELAHATCHIE, MISSISSIPPI

    Mr. Ross. Thank you.
    Senator Wicker. Thank you very much, sir.
    Mr. Ross. Well, let us see here. Here we go. No, here we 
go.
    Thank you, Senator. Thank you, Senator Booker. I want to 
thank Senator Booker for Wicker-Booker on behalf of the cities 
of Mississippi. We appreciate you very much. You have a fine 
reputation there because of that.
    Senator Booker. Thank you very much.
    Mr. Ross. Thank you.
    Senator Wicker. Thank you.
    Mr. Ross. Thank you for the opportunity to discuss the 
state of passenger rail in the South and the work you did to 
make this possible through the FAST Act. The provisions you put 
in the FAST Act allowed us to do this, allowed us to do the 
Gulf Coast Working Group, and we do appreciate that very much.
    I represent the Southern Rail Commission. The commission 
was formed by your colleagues in 1982 to be your eyes and ears 
for passenger rail in Mississippi, Alabama, and Louisiana. 
Myself and my fellow commissioners are appointed by our 
Governors, and it is our duty to come back and report to you on 
what we have found.
    The success of our states is tied to a comprehensive 
transportation system that serves all our citizens. The 
opportunity for our local communities to succeed depends on our 
ability as citizens to be able to move. As our commission has 
visited communities across the gulf south, we have found that 
the transportation options available to our citizens are 
becoming more limited and costly, especially outside the 
megacities such as Dallas and Atlanta. It is like they say, if 
you are going to go to Heaven, you have got to go through 
Atlanta.
    And this is not limited to our part of the country. We have 
it all over the country. You have all over small and medium-
sized cities are losing transportation options, losing flight 
service, losing bus service. We talk to mayors in places such 
as Tallahassee and Shreveport, and they told us their struggle 
is to compete because of limited and expensive air travel and 
no alternative options.
    Out of this issue came the Gulf Coast Working Group that 
you all put together. I want to thank you all for doing that. 
We have been asked to determine the best way to reestablish the 
passenger service on the coast, and we are working with local 
leaders, the leadership of the FRA, and the host railroad CSX. 
And we have begun our work and we are well on our way to giving 
you a report within the 9-month timeframe.
    As you saw, we recently completed the inspection train. I 
now know what it feels like to be a rock star with Senator 
Wicker. We went from New Orleans to Jacksonville, and I want to 
thank Mr. Boardman, the CSX for all the work they did to get 
that done.
    We saw an amazing outpouring of support in every city, even 
in Live Oak, Florida, where they want a stop. They do not have 
a stop. They had more people there in that little town than 
most of the larger cities. It was amazing. They just want an 
opportunity. That is what this was all about. Every city turned 
out. They want an opportunity, and that is what they are 
looking for. They are looking for handout, they are looking for 
a hand up, and they see Amtrak service as that opportunity.
    We will continue our work on the gulf coast. We are also 
looking at train service on the I-20 corridor from Meridian, 
Mississippi, to Fort Worth, Texas, and we are also working on 
multi-departure service between New Orleans and Baton Rouge in 
Louisiana. And we are gearing toward connecting our small 
cities to our larger ones, again, giving these cities the 
opportunity to compete.
    As we continue our work, the support of the national rail 
passenger system is critical. You saw on our video the public 
support that is there. And that is why Amtrak was formed, to 
support the national rail system. And this support that you saw 
along this rail line cannot only be leveraged for support of 
the national system, but can be leveraged for support of the 
issues you have, the Hudson tunnels, the things that have to be 
done on the Northeast Corridor. Those people can encourage 
their Senators like Senator Wicker to support you. And they can 
be your party. You can use them to leverage issues of national 
importance.
    We also need you to support an Amtrak board that reflects 
our country, that not just the Northeast Corridor but 
everywhere, people that understand that all of our system is a 
part of a national system that is willing to back your issues 
in New Jersey and New York and also our issues in the gulf 
south and in the west.
    We also need a President of Amtrak that is willing to do 
that. Mr. Boardman has stepped forward and has helped us, but 
he is soon to leave, as you pointed out. We need your support 
in making sure that the next President of Amtrak understands 
that there is a national system.
    We also appreciate the provisions you put in the FAST Act, 
and we ask that you support the appropriation of money to CRISI 
and to the restoration and enhancement grants and the other 
provisions that can help us get these trains started.
    I think all the cities along this route see the economic 
development potential of the train. We invested in the national 
interstate system years ago and saw tremendous economic 
development from that. Now, we are having to put more money 
than ever into it with a diminishing return as we add lanes. A 
very modest investment in passenger trains across this country 
can create large economic development opportunities to all 
these cities on a scale of that. And it is very important to 
these people. And they just want to compete. They just want to 
prosper.
    But one thing I hope you saw on that film, that film you 
saw, black, white, young, old, Republican, Democratic, this is 
a bipartisan issue that we can all back and we all can agree 
on. And it is an issue that can bring our country together in a 
time that we need to.
    And I thank you all so much for your time and your 
invitation, and I look forward to working with you to get these 
things done.
    [The prepared statement of Mr. Ross follows:]

Prepared statement of Hon. Knox W. Ross, Secretary-Treasurer, Southern 
      Rail Commission and Mayor, City of Pelahatchie, Mississippi
    Chairman Fischer, Ranking Member Booker, Senator Wicker and members 
of the Surface Transportation and Merchant Marine Infrastructure, 
Safety and Security Subcommittee, thank you for the opportunity to 
appear before you today to discuss issues important to the Nation's 
passenger rail system.
    The people of the South also owe this committee a huge thank you 
for your efforts to include a great passenger rail title in the FAST 
Act for the first time in our history!
    I am Knox Ross, the Mayor of the City of Pelahatchie, MS. More 
important, I'm here today as an appointed commissioner to the Southern 
Rail Commission--a tri--state interstate rail compact established by 
the U.S. Congress in 1982 for the states of Alabama, Mississippi and 
Louisiana.
    I didn't get appointed by the Mississippi Governor to the Southern 
Rail Commission so I could get a station for my town; I don't have 
service today and I'm not going to get a station. We are 20 miles to 
the east of Jackson Union Station and I wholeheartedly support my 
colleague Mayor Tony Yarber in his efforts to redevelop that station 
and its surrounding area.
    I am a commissioner because I understand that the success of our 
town is directly tied to the prosperity of the region. And for my 
region to prosper, we must have a transportation system that provides 
options for residents to connect to opportunity in our region and 
beyond. Sadly, because of the loss of essential air service for some 
and the imminent threat of loss of service for others, our options are 
getting increasingly limited. But that doesn't have to be. Passenger 
rail service is an option that help us grow our economy by attracting 
and retaining talent, bringing new tourists in to visit, and connecting 
our residents to jobs and opportunity.
    What I just highlighted is not all too different than the 
conditions facing my colleagues in Colorado, Michigan, Missouri, 
Wisconsin, Kansas, Montana, Nebraska, Minnesota, West Virginia, and 
many other states.
    When you created the Southern Rail Commission 30 years ago, you 
charged us to be your eyes and ears for the needs of the South. Well, 
I'm here to report back that the needs are real in the South and we are 
ready for your help.
    Last week, thanks to the leadership of Senators Wicker, Cochran, 
Nelson, and Representative Corrine Brown, we kicked off the Gulf the 
Coast Passenger Rail Working Group to develop the best, most efficient, 
most fiscally responsible solution for restoring passenger rail service 
to the Gulf Coast--service that was lost more than a decade ago because 
of Hurricane Katrina. I want to let you know that, with the leadership 
from FRA Administrator Feinberg and her team, and cooperation of 
members from the states of Florida, Alabama, Mississippi and Louisiana, 
and CSX, we are going to deliver a report in September that I am 
confident you will be proud of.
    Last week, with the support of our good friend President Boardman 
and his amazing team at Amtrak and CSX, we hosted an inspection train 
along the Gulf Coast from New Orleans to Jacksonville. I wish you all 
could have been on the train with us to see the genuine, patriotic 
excitement for passenger rail service on this route in communities all 
along the coast--some of which were devastated by Hurricane Katrina and 
still fighting hard to bounce back. Each stop had hundreds, if not 
thousands of people cheering and asking when they will get to board the 
train.
    Unfortunately, we still have work to do to secure the funding 
through appropriations, but the experience witnessed by our commission, 
the mayors, and the governors of these states showed us that failure is 
not an option.
    The region is set to grow by 10 million people over the coming 
years and we need options to connect our people to opportunity, 
increase economic prosperity and support our thriving and culturally 
rich communities. And we need ways to bring more tourists to our 
beautiful coast and spend their money.
    We also need to think bigger than just restoring service to the 
Gulf.
    We are also committed to starting service connecting Baton Rouge to 
New Orleans, providing access to the New Orleans airport, and 
connecting the two largest cities in the Pelican State with another 
travel option to the congested I--10 corridor.
    Another corridor that needs a similar option is Interstate 20. We 
are also dedicated to connecting the mega regions of Atlanta and 
Dallas-Ft Worth through Meridian, Jackson, and Vicksburg, Mississippi, 
and Northern Louisiana. I would like to submit for the record a letter 
of support sent by 20 mayors and civic leaders in that corridor to the 
governors of Alabama, Mississippi, Louisiana, and Texas asking for 
their commitment to this project as well.
    The Southern Rail Commission is doing your bidding as asked. And 
now I'm here to ask for your help so we can make this vision a reality.
    First, and most important, we must never lose sight of the 
importance of the national passenger railroad system. The passenger 
rail title arbitrarily separates the Northeast Corridor's 
appropriations from the rest of the country. The Northeast Corridor is 
indeed incredibly important, and our commission will work with anyone 
in the Northeast to improve this economic engine. However, prioritizing 
the Northeast over the rest of the country is not fair to our states 
that have subsidized the Northeast system, and sends the wrong signal 
to the thousands of southern citizens--young and old--that came out 
last week on a work day to support restoring passenger rail service in 
the Gulf.
    Second, we must ensure that this fact is well understood by the 
Amtrak Board of Directors. Joe Boardman is set to retire this fall. Joe 
has been a great friend for the national passenger rail system, 
including in the South, and we're grateful to him for his dedication 
and support. It's vitally important that the Amtrak Board of Directors 
find a qualified successor able to continue Joe's efforts. A criterion 
must include a deep understanding of and support for all three of 
Amtrak's lines of service--state--supported, long--distance, and the 
Northeast Corridor.
    Third, Amtrak's Board of Directors should be diverse in geographic 
representation. The current Board's makeup is heavily weighted to favor 
the Northeast. I call upon you to provide the South due representation 
on the Board of Directors with the additional position made available 
by the FAST Act.
    Fourth, our states, local governments, and businesses are ready to 
do their part and invest in our passenger rail system. However, we need 
your help to ensure the Federal government is a partner in this effort. 
This means we need to support dedicated passenger rail funding for 
Amtrak, and fund the two discretionary grant programs created by this 
Committee in the FAST Act.
    The Consolidated Rail Infrastructure and Safety Improvements 
program is the most diverse and geographically accessible program we 
can fund. This program funds everything from positive train control to 
capital construction to planning and research, and it's available to 
all states. Congress has not made dedicated passenger rail capital 
funding available to our states since 2010. We are past due for 
Congress to partner with us to implement the state rail plans that are 
required by this legislative body.
    The Restoration and Enhancement Grants program is a prudent 
investment as well. This program provides operating assistance for up 
to six new, reestablished or expanded passenger rail services.
    No transportation system in America is self--sustaining. Let us 
look no farther than the highway and transit programs to highlight this 
fact. Prior to the FAST Act, the Highway Trust Fund needed nearly $75 
billion from 2008 to 2015 to stave off insolvency. The FAST Act 
transferred another $70 billion from 2016 to 2020.
    In 2008, Congress required all services under 750 miles to pay 100 
percent of its cost. We don't require this for highways or transit, and 
I don't think we should require that for passenger rail either. The 
Restoration and Enhancement Grants program provides fiscally 
responsible operating assistance: up to 80 percent operating assistance 
in year one, 60 percent in year two, and 40 percent in year three. The 
service will have to pay 100 percent of its cost in year four, but this 
program provides new and reestablished service training wheels per se 
to help it build ridership and farebox receipts before its left to its 
own devices.
Conclusion
    Thank you for the opportunity to testify and answer your questions 
today. I need to once again thank my Senator, Senator Wicker. He is a 
true leader and partner for our commission, and we wouldn't be where we 
are today in terms of serious progress for our rail vision without his 
support. This thank you extends to his staff, and to the bipartisan 
work of the Commerce Committee staff.
    We look forward to working with this Subcommittee to achieve our 
vision and support your efforts to provide a passenger rail system that 
improves our economies and provides the necessary options for us to 
compete for jobs and attract talent. I will be happy to respond to your 
questions.

    Senator Wicker. Thank you, Mayor Ross.
    Mr. Hoeffner, are we pronouncing that correctly?
    Mr. Hoeffner. Yes, you are.
    Senator Wicker. You are welcome, and proceed in your own 
fashion. Thank you, sir.

            STATEMENT OF TIMOTHY H. HOEFFNER, CHAIR,

         MIDWEST INTERSTATE PASSENGER RAIL COMMISSION;

                 AND DIRECTOR, OFFICE OF RAIL,

             MICHIGAN DEPARTMENT OF TRANSPORTATION

    Mr. Hoeffner. Thank you, Chairman and members of the 
Committee. I really appreciate this opportunity. And I would 
like to thank Senator Peters for his graceful words.
    I am the Chair of the Midwest Interstate Passenger Rail 
Commission. It is a compact. We have nine State members that 
was created in 2000. We have Indiana, Illinois, Michigan, 
Missouri, Minnesota, North Dakota, and Wisconsin. And 
basically, what we do is we are appointed by the Governor or 
the Governor's designee and legislators.
    So our sister companion to that is the technical folks from 
the DOT, the MWRRI, where we have worked on a 3,000 mile system 
starting 1996.
    I really want to thank the Subcommittee and the Committee 
for all their work on the rail title in the FAST Act. I mean, 
that is absolutely critical for the states working in these 
passenger rail activities because for once we--you know, having 
a title in the transportation authorization is in our minds a 
game-changer.
    I would like to talk a little bit about Michigan service 
for a minute. We have three Amtrak services in Michigan: the 
Pere Marquette between Grand Rapids and Chicago; the Blue Water 
between Port Huron and Chicago; and the Wolverine, which is the 
spine of our system, between Pontiac, Detroit, and Chicago. All 
of these systems are sponsored by the State of Michigan. But 
for the State of Michigan paying Amtrak for this service, the 
State of Michigan would have no intercity passenger rail.
    With the implementation of section 209 of PRIIA, we lost 
our basic system service. The Wolverine was previously a basic 
system service. Our operating payments to Amtrak were $8 
million prior to that, and they went to $25 million after the 
implementation of that.
    What we have been doing is working with Amtrak and the 
Federal Railroad Administration and local communities to take 
and try and reduce the cost and increase the ridership and 
revenue. We have the largest ownership of Amtrak outside the 
Northeast Corridor in Michigan and northern Indiana. They own 
97 miles between Kalamazoo, Michigan, and Porter, Indiana. The 
State of Michigan, with a grant from the FRA, purchased 135 
miles east of that, and we are in the process of upgrading it 
similarly to what Amtrak and MDOT have done on Amtrak's 
ownership where trains are currently operating at 110 miles an 
hour since February 15, 2012.
    Moving on now to more of the regional perspective, we have 
a long history in the Midwest of working together not only 
through MIPRC and the MWRRI but on projects, as Senator Peters 
mentioned, the programmatic EIS service development for the 
corridor. But that is not just to benefit Michigan. Indiana and 
Illinois are our partners, and in fact, most of the major 
construction will actually occur in Indiana and Illinois and 
what we call the South of the Lake.
    That is consistent with the CREATE project that has been 
looking at improving congestion, eliminating congestion in 
Chicago, and it is consistent with Mr. Boardman's Blue Ribbon 
Panel recommendation. And the CREATE flyover, Englewood flyover 
is a critical piece on that.
    The states are working together in the Midwest on an 
equipment procurement to replace the Amtrak fleet. And we are 
also looking forward to kicking off the FRA-led Midwest 
planning.
    Now, I would like to step out a little bit more from a 
larger State perspective. There is a synergy between the long-
distance trains and the regional trains that the states 
sponsor. The intercity trains we see kind of interconnecting 
the regions where we have the higher level of regional service, 
but there are some things that need to be added to this. We 
would love to have a direct connection, as an example, from 
Michigan to the Northeast Corridor without having to go west 
through Chicago. That could be done by rerouting a long-
distance train or making a connection.
    Canada is our largest trading partner. One-third of all the 
trade with Canada comes across a Michigan border. We cooperate 
with the province of Ontario as closely if not closer than we 
actually do Wisconsin, Indiana, and Illinois. So international 
connections as well as the regional connections are important.
    One key issue is, though, that since the introduction of 
section 209 of the PRIIA Act, there are 30 State-sponsored 
services of Amtrak today serving over 300 communities and 
nearly 15 million riders. Roughly half of every rider on Amtrak 
is on a State-sponsored train, a train which the state is 
paying for. What does that really mean? That means about $500 
million in ticket revenue and about another $250 million in 
State payments to Amtrak to operate these. The states take and 
provide Amtrak about $750 million.
    And I would like to follow up on what the Honorable Mr. 
Ross said earlier about the representation on the Board because 
it really is important to have a broad makeup on that and one 
that would represent everyone, including the states.
    So again, I would like to thank you for your work on the 
FAST Act and also furthering that and looking at the funding. 
Thank you very much.
    [The prepared statement of Mr. Hoeffner follows:]

 Prepared Statement of Timothy H. Hoeffner, Chair, Midwest Interstate 
   Passenger Rail Commission; and Director, Office of Rail, Michigan 
                      Department of Transportation
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify at this hearing.
    My name is Tim Hoeffner and I am the Director of the Office of Rail 
for the Michigan Department of Transportation (MDOT). I have been at 
MDOT for more than 35 years, with nearly 25 years of experience in 
rail. For 22 of those years, I have been involved in MDOT's 
relationship with Amtrak. In addition, I serve as Governor Snyder's 
designee to the Midwest Interstate Passenger Rail Commission (MIPRC), 
where I am in my third term as Chairman. MIPRC is comprised of state 
legislators, governors or their designees, and private sector 
representatives selected by governors. We represent nine Midwestern 
states--Illinois, Indiana, Kansas, Michigan, Minnesota, Missouri, 
Nebraska, North Dakota, and Wisconsin--to promote, coordinate, and 
support regional improvements to passenger rail service. I have also 
served on the Midwest Regional Rail Initiative (MWRRI) since its 
inception. The MWRRI is a technical effort led by the state DOTs to 
develop and implement a nine-state, 3,000-mile intercity passenger rail 
network with Chicago as its hub. I am also a member of the State for 
Passenger Rail Committee (SPRC) and the Next Generation Equipment 
Committee (NGEC).
    First, I would like to thank the members of this subcommittee and 
the Committee on Commerce, Science, and Transportation for including a 
rail title for the first time in a transportation funding 
authorization. The Fixing America's Surface Transportation (FAST) Act 
programs that address safety, capital and operations are critical for 
the states, as well as funding for the State-Supported Route Advisory 
Committee. These all have laid the groundwork for the development of a 
truly multi-modal transportation system in our Nation. We must now take 
steps to ensure the programs outlined in the FAST Act are funded.
    Since 1996, the Midwestern states have worked together to plan and 
implement a 3,000-mile Chicago-hub system to connect the region with 
fast, frequent passenger rail service through the MWRRI. When 
completed, approximately 90 percent of the Midwest's population will be 
within a one-hour car ride to a Midwest Regional Rail System station 
and/or within 30 minutes of a feeder bus station. Please see Exhibit A 
for a map of the Midwest Regional Rail System.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Michigan's rail system is comprised of more than 3,600 miles of 
track, of which 665 miles are state-owned rail lines. This includes 135 
miles of the federally designated Chicago-Detroit/Pontiac high-speed 
rail corridor. In addition, Amtrak owns approximately 97 miles of this 
same corridor in Indiana and Michigan. This is largest area of Amtrak 
ownership not associated with the Northeast Corridor. This combined 232 
miles of public ownership represents nearly 80 percent of the entire 
Chicago-Detroit/Pontiac corridor.
    Please see Exhibit B for a map of the state-owned rail lines and 
Exhibit C for a map of Michigan's intercity passenger rail system, as 
operated by Amtrak.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    In partnership with MDOT, the Indiana Department of Transportation 
(INDOT), the Illinois Department of Transportation (IDOT), and the 
Federal Railroad Administration (FRA) have initiated a program to 
evaluate passenger rail improvements for the Chicago-Detroit/Pontiac 
passenger rail corridor. The program includes three components:

  <bullet> An evaluation of potential route and service alternatives 
        for the corridor.

  <bullet> A Tier 1 Environmental Impact Statement that reviews the 
        impacts and benefits of the rail service.

  <bullet> A Service Development Plan that will serve as a business 
        plan for future implementation decisions.

    The program's purpose is to improve intercity mobility by providing 
an improved passenger rail service that would be a competitive 
transportation alternative to automobile, bus, and air service between 
Chicago and Detroit/Pontiac. The vision for the corridor includes safe 
and reliable passenger rail service that offers frequent, daily round 
trips at speeds up to 110 miles per hour. The program will provide 
sufficient information for FRA to potentially support future decisions 
to fund and implement a major investment in the Chicago-Detroit/Pontiac 
passenger rail corridor.
    Being developed in concert with the Chicago Regional Environmental 
and Transportation Efficiency (CREATE) program, the Englewood Flyover 
and other proposed projects, this program will increase efficiency in 
the region's rail network and reduce rail corridor congestion in and 
around the Chicago area. Michigan has been working very closely with 
Indiana and Illinois to develop plans in the south of the lake region 
key to both CREATE and the Detroit/Pontiac Rail Corridor Program.
    Preparation of the Final Environmental Impact Statement and Service 
Development Plan are under way and expected to be complete in 2016. 
Please see Exhibit D for a map of the study area.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Exhibit E portrays the ownership of rail along the Chicago-Detroit/
Pontiac corridor. Since 1995, FRA, Amtrak and MDOT have tested, 
developed and implemented Incremental Train Control System (ITCS), 
which is a communications-based Positive Train Control (PTC) system to 
allow trains to travel at speeds more than 90 mph, between Porter, 
Indiana, and Kalamazoo, Michigan. Trains have been traveling at 110 mph 
on this segment since February 2012. This was the first place not 
connected to the Northeast Corridor to operate at 110 mph.
    Track improvements are under way between Kalamazoo and Dearborn to 
allow trains to travel at speeds of up to 110 mph, which will extend 
higher speeds from Porter, Indiana, to Dearborn. This will allow travel 
time by train to be competitive with travel on the highway in the 
region.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    MDOT has contracted with Amtrak for intercity passenger rail 
service since 1973. Michigan has continued (Chicago-Detroit/Pontiac) 
this relationship over the years, even as the financial burden to the 
state has greatly increased. There are three Amtrak-operated services 
in Michigan: the Pere Marquette service (Grand Rapids--Chicago), the 
Blue Water service (Port Huron--Chicago), and the Wolverine service 
(Pontiac--Detroit--Chicago). These services are summarized below:

  <bullet> Pere Marquette service (Grand Rapids--Chicago)

    <bullet> 176 Miles

    <bullet> One round trip daily

    <bullet> Serving 4 station communities in Michigan

  <bullet> Blue Water service (Port Huron--Chicago)

    <bullet> 319 Miles

    <bullet> One round trip daily

    <bullet> Serving nine station communities in Michigan

  <bullet> Wolverine service (Pontiac--Detroit--Chicago)

    <bullet> 304 miles

    <bullet> Three round trips daily

    <bullet> Serving 12 station communities in Michigan

    The Pere Marquette and Blue Water have always been state-supported 
services. The Wolverine was part of Amtrak's basic system of service, 
but became state-supported with the implementation of Section 209 under 
the Passenger Rail Investment and Improvement Act (PRIIA) of 2008. 
Michigan is now one of only a few states that has no benefit from 
Amtrak long distance service, or the basic system of service.
    Without state support for Amtrak services, there would be no 
intercity passenger rail service in Michigan. With the implementation 
of PRIIA, Michigan's operating support went from $8 million in 2013 to 
upwards of $25 million in 2014. In addition, the State of Michigan has 
made more than $1.1 billion in capital investments in the Amtrak-
operated rail corridors over the last 40 years. More than $129 million 
of these capital investments have come from state dollars, as well as 
more than $18 million from local or private funds with the remaining 
$956 million from Federal dollars.
    The following are Exhibits F and G, which summarize the annual 
ridership and revenue for the three Amtrak services in Michigan from 
2008 to 2015. While Michigan's revenue numbers are maintaining steady 
levels, fuel prices have impacted Michigan's ridership, which is 
consistent with Amtrak services nationwide.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    In July 2015, the Midwest was chosen as one of two regions that FRA 
will partner with to develop a long-term (20-40 years) vision for a 
high-performance regional rail network. The Midwest's FRA-led planning 
project will determine the priorities, studies and investment needs to 
advance projects within the multi-state network context and also will 
identify the potential institutional arrangements, financial 
requirements, phasing, planning, and development activities needed to 
achieve the vision.
    During Fiscal Year (FY) 2015, more than 2.8 million people traveled 
on corridor services within the Midwest, capping off 10 years of 
impressive growth on these regional, state-supported routes. During the 
past 10 years, ridership on Midwestern corridor routes has increased 58 
percent, while ridership on long-distance routes that serve the Midwest 
has grown by 14 percent. Eight long-distances routes serve the Midwest, 
all originating out of Chicago, which is the Nation's largest rail hub. 
Altogether, these routes have 80 station stops across the Midwest, many 
of them in rural communities not served by other forms of intercity 
transportation.
    Economic development nationwide will benefit if transportation is 
developed as an integrated system of all modes. Passenger rail is 
generally the best option for transporting people who are traveling 
between 100 and 600 miles. It is also often the best transportation 
mode in certain types of weather and under emergency situations. A weak 
intercity passenger rail ``leg'' results in congestion, lost travel 
time, and decreased fuel-efficiency.
    Between FY 2009 and FY 2011, Congress appropriated more than $10 
billion in Federal funding to states for passenger rail capital 
improvements and planning. Under the High Speed Intercity Passenger 
Rail (HSIPR) program, the Midwest was awarded $2.5 billion. The 
majority of funding will help improve or develop four key interstate 
passenger rail corridors:

  <bullet> Chicago-St. Louis-Kansas City

  <bullet> Chicago-Minneapolis/St. Paul

  <bullet> Chicago-Quad Cities

  <bullet> Chicago-Detroit/Pontiac

    A group of Midwestern states also has received $268 million to buy 
``next generation'' rail cars and locomotives that will modernize the 
Midwest's fleet, help accommodate increased ridership, improve service 
reliability, and reduce operating costs on eight interstate corridors. 
While this funding is allowing our states to strengthen and expand 
passenger rail service significantly in our region, Midwestern states 
need continued assurance of adequate Federal capital assistance in 
order to continue this valuable development.
    Connectivity between the regional services and national network 
also is important. Regional services offer more frequencies on shorter 
corridors, while the national network of long distance services offers 
less daily frequencies. Both regional and long distance services are 
mutually beneficial, as they provide vital connectivity to many areas 
of the country. This is similar to how regional airlines connect to 
major airports, or local roads connect to the interstate freeways, 
which then connect to the important national highway system. Not only 
do long distance services provide end-to-end connections, but they also 
provide connections to rural communities along the routes that may not 
be served by other modes of intercity transportation.
    It is important to Michigan to implement a direct connection to the 
east coast and Northeast Corridor. This will eliminate the need for 
Michigan travelers to go west to Chicago and then east. This could be 
accomplished by rerouting one of the long distance trains through 
Michigan, which may reduce the costs of these trains. Another option 
would be to provide a direct connection from Michigan routes to the 
long distance trains. Michigan has requested Amtrak to consider 
rerouting one of the long distance trains to the east coast through 
Michigan over their ownership and Michigan ownership.
    It is also important to consider international connectivity, for 
which Michigan and the Midwest are at the center of the Great Lakes 
international economic mega-region. The United States and Canada are 
one another's largest trading partners, with more than $575 billion in 
annual trade last year, of which more than 35 percent passed through 
Michigan's borders. Also in this region, more than one-third of the 
populations of both the United States and Canada live within an 
approximately 600-mile radius. This presents great opportunity for 
success of an international passenger train service between Chicago and 
Toronto/Montreal by connecting these major population centers.

  <bullet> Chicago urban area population: 9.5 million

  <bullet> Detroit urban area population: 3.75 million

  <bullet> Toronto urban area population: more than 6 million

  <bullet> Montreal urban area population: 3.8 million

    Michigan is actively supporting and working toward restoring cross-
border passenger rail service on the Detroit-Windsor rail corridor. 
Establishing this service is a priority for MDOT as part of an expanded 
seamless rail corridor providing passenger service between Chicago and 
Toronto or Montreal. Michigan has been working closely with the 
government of Ontario to plan for and implement this corridor. The 
Chicago-Toronto/Montreal corridor is the most obvious ``missing link'' 
in the North American rail passenger system.
    Providing cross-border passenger rail service will increase the 
attractiveness of passenger rail travel within the region, allowing us 
to capture travelers who may be currently choosing other modes of 
transportation. This improved and expanded service along the corridor 
will also enhance our economic competitiveness--at the local, state, 
and regional levels--through increased ridership and will promote 
cross-border tourism and travel. It will promote energy and 
environmental efficiency by reducing vehicle emissions, as well as 
alleviate bridge, tunnel, and road congestion. Intercity mobility along 
the Chicago-Toronto/Montreal corridor also will be enhanced and will 
support interconnected communities by providing a more reliable 
passenger rail service.
    In FY 2015, the 30 state-supported services nationwide carried 
approximately 15 million passengers, which represented nearly 50 
percent of Amtrak's ridership, to nearly 300 communities throughout 
America. These trains have generated more than $486 million in ticket 
sales for Amtrak. The states have paid Amtrak another $223 million to 
operate these services, all with no direct involvement in Amtrak's 
oversight or governance.
    In closing, I want to stress the importance of continued and 
reliable capital investments, which are key to the success of all 
transportation modes--including passenger rail. While funding received 
in recent years is allowing the Midwest to strengthen and expand 
passenger rail service significantly, we need to maintain our momentum 
and continue strengthening the performance of our regional rail system. 
Michigan and our partner Midwestern states need continued assurance of 
adequate Federal capital assistance.
    Thank you for your consideration and the opportunity to submit 
testimony.

    Senator Wicker. Thank you, Mr. Hoeffner.
    Mr. Klein?

            STATEMENT OF RICK KLEIN, CITY MANAGER, 
                   CITY OF LA JUNTA, COLORADO

    Mr. Klein. Thank you very much for your invitation to come 
here. I feel very proud to represent our area.
    Thank you for your great service to this great nation. The 
old adage ``this nation was built by trains'' is as important 
today as it was back when our Nation was being built.
    Everybody knows that we will see a lot of changes over the 
next few decades. America will need a better passenger rail 
system. Everybody knows that times are not as good as they used 
to. Money is hard to come by and we need to cut back on Federal 
spending.
    When this great nation was being built, we had fewer 
resources and less technology than we enjoy today. And our 
forefathers put together a rail system that served both freight 
and passengers. Amtrak connects towns, employs residents, 
serves as an engine for economic development in La Junta, 
Colorado, and in the West.
    Five years ago when Amtrak's contract with Burlington 
Northern Santa Fe was due to expire in 2016, and we could lose 
Amtrak's Southwest Chief from Newton, Kansas, west to 
Albuquerque, New Mexico, if $100 million of rail infrastructure 
was not brought back up to passenger rail standards and another 
$100 million for continued maintenance. The train would be 
relocated or discontinued.
    The City of La Junta initiated a three-state coalition to 
help save Amtrak through our region. We formed a Southwest 
Chief Coalition along with communities and counties in Kansas, 
Colorado, and New Mexico. Our first attempt was to secure funds 
from Title 5, which we did not get, but we learned a lot of 
lessons. You know, so we have been successful working along 
with the Colorado delegation, along with the Kansas and New 
Mexico delegation. Then, we have been successful with TIGERs VI 
and VII, and they are currently ongoing right now.
    With the TIGER grants and working with Burlington Northern 
Santa Fe and Amtrak, we have reduced this amount to about $38 
million left of rail to be replaced. After TIGER VII, we will 
have completed 127 contiguous miles of new infrastructure 
helping Amtrak achieve the speeds needed to stay on schedule in 
Kansas, Colorado, and New Mexico, and in New Mexico a critical 
section by Lamy where train speeds will increase from 30 miles 
an hour to 79 miles per hour improving service.
    We are working with the State of Colorado, Burlington 
Northern Santa Fe, Amtrak, bus companies to develop a 
multimodal facility. This is an effort to create tourism in our 
area. There are similar efforts going on throughout our region. 
Even in New Mexico, what I found is there is one called La 
Castaneda that is being rebuilt and it is a historical Amtrak 
station, and it is by the same people that have the La Posada 
in Winslow, Arizona. And it is a beautiful train structure that 
serves as the station.
    So we have found, I have found that we have dedicated 
people working hard across this Nation on partnership work. The 
Federal Railroad Administration has been great to work with, as 
so has been the three States' Departments of Transportation.
    When asking for matches for TIGER VII, we have communities 
that did not have an Amtrak stop in their communities but they 
provided matches for the grant. The message was loud and clear. 
We need to save this route so we could have access to this 
great nation.
    We see a movement where more people are using mass transit 
and want to be connected to this network. They would rather be 
on their cell phones, their iPads and stuff as they are 
traveling versus driving.
    Thank you for the FAST Act. The grant opportunities for the 
25 percent set-aside in rural areas, for consolidated rail 
infrastructure and safety improvements is deeply appreciated. 
We feel that partnerships are the way to get these improvements 
done.
    Long-distance trains provide our intercity travel. Whether 
I am going to Dodge City, Kansas, or down to Santa Fe, New 
Mexico, that is our mode of travel. And I have run into just 
everyday people just from your Amish to your working families 
to travelers from all over the world, and they say this is the 
way we travel. I feel like the Little Engine going up to big 
mountain saying I think we can, I think we can. Then, I think 
about how important it is to us as a community for our economic 
development, tourism, and mobility. So I know that we can make 
it up this mountain with you guys as our partners. As you know, 
passenger rail is a very important part of our nation's future 
and our region's future.
    [The prepared statement of Mr. Klein follows:]

            Prepared Statement of Rick Klein, City Manager, 
                       City of La Junta, Colorado
    Thank you for your service to our great nation.
    The old adage ``This nation was built by trains'' is as important 
today as it was back when our Nation was being built. The nation is 
still being built and with the changes that we will see over the next 
few decades, America will need a better passenger rail system. Everyone 
knows that times are not as good as they use to be. Money is hard to 
come by and we need to cut back on Federal spending. When this great 
nation was built, we had fewer resources and less technology than we 
enjoy today and our forefathers put together a system of rail that 
served our communities for both freight and passengers.
    Amtrak connects towns', employs residents, and serves as an engine 
for economic development in La Junta and the West.
    Five years ago, Amtrak's contract with the BNSF was due to expire 
in 2016 and we could lose Amtrak's Southwest Chief from Newton, Kansas 
west to Albuquerque, New Mexico, if $100 million of rail infrastructure 
wasn't bought back up to passenger rail standards. The train would be 
relocated along the Transcom line to the south.
    The City of La Junta initiated a three State coalition to help save 
Amtrak through our region. We formed the Southwest Chief coalition 
along with communities and counties in Kansas, Colorado, and New 
Mexico. Our first attempt was to secure funds form TIGER V, but failed. 
We did learned how the process worked and with the help of the Colorado 
delegation along with the Kansas and New Mexico's delegation, we have 
been successful with our TIGER VI and VII applications.
    With the TIGER Grants and working with BNSF and Amtrak we have 
reduced this amount to about $38 million dollars left to be replaced. 
After the TIGER VII is complete we will have 127 contiguous miles of 
new infrastructure helping Amtrak achieve the speeds needed to stay on 
their schedule in Kansas and Colorado. And in New Mexico a critical 
section by Lamy, trains speeds will increase from 30 mph to 79mph 
improving service.
    We also are working with the State of Colorado, BNSF, Amtrak, and 
bus companies to develop a multi-modal facility. This is an effort to 
create tourism in our area. There are similar efforts going on 
throughout the region.
    The City of La Junta is currently working on TIGER VII with all 
three states, communities and counties and the FRA to complete this 
task. I have found that we have dedicated people working hard together 
to complete this partnership work. The FRA has been great to work with 
as has been the three States Departments of Transportation.
    When asking for matches for TIGER VII, we have communities that 
didn't have an Amtrak stop in their communities, but provided matches 
for the grant. The message was consistent that we needed to save this 
route in our area, so we can have access to this great nation. We see a 
movement, where more people in the Cities are using Mass Transit and we 
want to be connected to this network.
    Thank you for the FAST Act. The grant opportunities for the 25 
percent set aside for rural areas in the Consolidated Rail 
Infrastructure and Safety Improvements is deeply appreciated. We feel 
that partnerships are the way to get these improvements done. Long 
distance trains provide our intercity travel. Whether I'm going to 
Santa Fe, New Mexico or to Dodge City, Kansas, this is the way to 
travel. When traveling, I meet tourist from all over the world. From 
young working families to the Amish, they tell me how this is how they 
travel.
    I feel like the little engine going up the big mountain saying ``I 
think we can, I think we can''. Then, I think about how important 
passenger trains are to us as a community for Economic Development, 
Tourism, and mobility. So, I know we have to make it up that mountain 
with you as our partner. Passenger Rail is an important part of our 
Nation's and region's future.

    Mr. Klein. And to Mr. Boardman and to your retirement, well 
earned.
    Mr. Boardman. Thanks, Rick.
    Senator Wicker. Thank you, Mr. Klein. You make an excellent 
point. Of course, you have all made excellent points. But I 
think when they are on their cell phones and smartphones and 
iPads, we would like for them not to have their hands on the 
steering wheel so----
    Mr. Klein. Yes.
    Senator Wicker. It appears to me that passenger rail is one 
of the solutions to distracted driving.
    Now, Mr. Boardman, you can wrap things up for our 
testimony. We are delighted to have you back here before the 
Subcommittee.

STATEMENT OF JOSEPH H. BOARDMAN, PRESIDENT AND CHIEF EXECUTIVE 
                        OFFICER, AMTRAK

    Mr. Boardman. Thank you, Chairman Wicker. And thank you for 
your kind words, and yours, too, Mr. Booker, and also Mr. 
Nelson and Ms. Fischer.
    I am pleased to have the opportunity this morning to be 
with you and with the rest of the panelists. I really regret 
missing the trip that you took last week because initially I 
intended to go, and I would have had a chance to see what you 
saw. And I understood, as you went along, the energy for 
everybody just kept growing and growing along the way.
    Senator Wicker. Chairman Carper was with us and represented 
Amtrak capably, so tell him thank you.
    Mr. Boardman. Thank you. I will.
    I saw the videos and I saw the articles and I heard what 
our folks had to say about the trip and the tremendous 
outpouring of support. The work you and your colleagues did in 
creating a mechanism for service restoration under the FAST Act 
will be a critical part of how the regions in this country like 
the gulf coast go about restoring Amtrak service.
    We are America's railroad because we were created by 
Congress and serve over 500 communities in 46 of the 48 states. 
We do not just leap from city to city. We connect smaller towns 
like La Junta and communities with one another and with the 
Nation's major urban centers. These communities pay taxes, too, 
and we provide them a service they use and depend on. I think 
the excitement you saw last week is the dramatic evidence of 
just how much we can bring to those towns and how deeply they 
appreciate it.
    The past decade has seen some major increases in ridership 
and revenue, and I am happy about that, but we have started to 
encounter some headwinds. The pending Surface Transportation 
Board on-time performance rulemaking is a major one. We need to 
be on time. It could seriously impact both the long-distance 
and the State-supported trains and raise cost to the states 
because of that.
    We are also facing some revenue challenges. As you may have 
heard, I recently wrote to our employees and our stakeholders 
in a letter--a couple letters now actually--about some of the 
other challenges we face as ridership and revenues are affected 
by a drop in oil prices, some recent bad weather, and even the 
strong dollar for international sales. This will be a 
challenging fiscal year for us and the rail industry in 
general. I think these challenges will come and continue in the 
coming year, and it is going to be important that all of us who 
believe in intercity passenger rail work together to support 
its development.
    The recent FAST Act acknowledges this by including Amtrak 
in the Nation's surface transportation policy for the first 
time. It restates Congress's intention that Amtrak operate a 
national system of service. The act further requires Amtrak and 
the Department of Transportation to work together to create a 
separate Northeast Corridor in the national network and those 
accounts by December 2016.
    The national network account will combine long-distance and 
State-supported services just for accounting purposes, and 
future Amtrak funding will be requested on that basis. The FRA 
will play a significant role in organizing these financial 
accounts and will, when it is over, be responsible for 
overseeing how we allocate the funds.
    The long-distance trains are the only Amtrak service on 70 
percent of our route mileage at half of our stations and in 
half of the states we serve. People often see these trains 
through the prism of their own experience and imagine a point-
to-point operation that resembled an airline between major 
endpoints. As has already been testified, that does not 
necessarily exist. As a matter of fact, 90 percent of our 
ridership on some of our longest routes is starting or ending 
somewhere along the route rather than going end point to end 
point.
    Most people depend on these trains for short distance 
trips, and you saw one of the senior citizens talk about senior 
citizens depending on it for a safe vacation in the video film. 
Getting from a rural community to a major city or traveling 
between cities along the route when alternatives--it has 
already been talked about--are shrinking like bus services, 
airline services. The majority of annual funding needed for 
long-distance trains is therefore for operating support to help 
cover the cost of these trips for passengers who need to make 
them.
    And Gateway program, which preserves and expands rail 
service between New York and New Jersey, took on an increased 
urgency in 2012.
    May I pass my time, Chairman?
    Senator Wicker. Yes, proceed.
    Mr. Boardman. When Super Storm Sandy sent the saltwater 
into the tunnels connecting to Penn Station compromising 
critical electrical and safety systems, that threatened the 
reliability of operations day in and day out. Mr. Booker 
already talked about that.
    The important part here is to remember it is about the 
people. It is about their real estate values. It is about their 
ability to get the work. It is about their ability to get home 
and take care of their kids. And once that was understood, we 
had a political synergy that you talked about, Senator, to move 
things forward. We need to build a new two-track Hudson River 
tunnel that will allow Amtrak to rebuild the existing tunnel 
without disruption for those 450-plus trains every day that 
operate on those two tracks.
    I came to Amtrak and I knew I was leading a very special 
company, but my time has proven to me over and over again that 
Amtrak is a national treasure, its network, its Northeast 
Corridor, and it is staffed by some of the best and most 
talented people in the rail business. And that is something 
this Nation cannot afford to lose. During my tenure, I sought a 
Federal commitment for all of Amtrak's needs. The FAST Act has 
taken a critical first step, and I thank you for it in adding 
Amtrak and the intercity passenger program to surface 
reauthorization.
    We must be careful--and this is a caution--not to lose the 
economies of scale of a unified operation. One of the things I 
have learned in my 8 years of service is that a unified system 
brings not just economies of scale but a greater understanding 
of the value that Amtrak delivers for the Nation, and the 
people along the gulf coast now know the value that they lost 
in 2005 when Hurricane Katrina came along. I was the FRA 
Administrator at that time.
    So the respective needs, wherever you are in this national 
network, for State corridors, long-distance services and the 
Northeast Corridor and unifying those interests here in 
Congress and across the country is critically important. I know 
you gentlemen understand that, and I thank you for it and this 
committee for it.
    [The prepared statement of Mr. Boardman follows:]

          Prepared Statement of Joseph H. Boardman, President 
                  and Chief Executive Officer, Amtrak
    Madam Chairman, and members of the Committee, good morning.
    I'm pleased to have the opportunity to be here with you this 
morning. I regret that I missed the chance to accompany you, Senator 
Wicker, on last week's inspection trip across the Gulf Coast states. I 
saw the videos and the articles, and I heard what our folks had to say 
about the trip, and the outpouring of support was simply tremendous. 
The work you and your colleagues did in creating a mechanism for 
service restoration in the FAST Act will be a critical part of how 
regions of the country like the Gulf Coast go about restoring Amtrak 
service.
    We are ``America's Railroad'' because we were created by Congress, 
and serve over 500 communities in 46 of the 48 contiguous states. We 
don't just leap from city to city--we connect smaller towns and 
communities with one another, and with the Nation's major urban 
centers. These communities pay taxes too, and we provide them a service 
they use and depend on. I think the excitement you saw last week is 
dramatic evidence of just how much we can bring to those towns--and how 
deeply they appreciate it.
    The past decade has seen major increases in ridership and revenue. 
But, we've started to encounter some headwinds. The pending Surface 
Transportation Board on-time performance rulemaking is one major issue. 
It could seriously impact both the long distance and state supported 
trains, and raise costs to states. We are also facing some revenue 
challenges. As you may have heard, I recently wrote our employees and 
our stakeholders a letter about some other challenges we face, as 
ridership and revenues are affected by the drop in oil prices, recent 
bad weather--and even a strong dollar, which hurt international sales. 
This will be a challenging Fiscal Year for us and the rail industry. I 
think these challenges will continue in the years to come, and it's 
going to be important that all of us who believe in intercity passenger 
rail work together to support its development.
    The recent FAST Act acknowledges this by including Amtrak in the 
Nation's surface policy for the first time, and as with previous 
reauthorizations, it restates Congress's intention that Amtrak operate 
a national system of service. The Act further requires Amtrak and the 
Department of Transportation to work together to create separate 
``Northeast Corridor'' and ``National Network'' accounts by December, 
2016. The National Network account will combine Long Distance and State 
Supported networks for accounting purposes, and future Amtrak funding 
will be requested on that basis. The FRA will play a significant role 
in the organizing of these financial accounts and will, when it's over, 
be responsible for overseeing how we allocate these funds.
    The long distance trains are the only Amtrak service on 70 percent 
of our route mileage, at half of our stations, and in half of the 
states we serve. People often see these trains through the prism of 
their own experience, and imagine a point-to-point operation that 
resembles an airline between the major endpoints, such as Chicago and 
Seattle. But while these trains operate between distant endpoints, that 
is not how they're typically used by our riders. As much as 90 percent 
of the ridership on some of our longest routes is starting or ending 
somewhere along the route, rather than going endpoint to endpoint. 
People mostly depend on these trains for short-distance trips--getting 
from a rural community to a major city or traveling between cities 
along the route, when alternatives like bus service, commercial flights 
or private auto use aren't available or practical. The majority of the 
annual funding need for the long distance trains is therefore for 
operating support to help cover the costs of these trips for passengers 
who need to make them.
    On the other hand, the needs of the Northeast Corridor are 
essentially all capital-related. This committee has heard testimony in 
the past from numerous officials, including recently our Board 
Chairman, Tony Coscia, and the NEC Commission, about the urgent need 
for capital investment in the infrastructure. Our top priority among a 
long list of major priorities is the Gateway Program.
    The Gateway Program--which preserves and expands rail service 
between New York and New Jersey--took on increased urgency in 2012, 
when Super Storm Sandy sent salt water into the tunnels connecting to 
Penn Station, compromising critical electrical and signal systems and 
threatening the reliability of operations day-in and day-out. The first 
element of the Gateway Program is to build a new, two-track Hudson 
River rail tunnel that will allow Amtrak to rebuild the existing tunnel 
without disruption to the 450 daily NJ TRANSIT and Amtrak trains that 
operate over these two tracks.
    In light of this imperative, steps have been taken in that last 
year to move critical elements forward. The FAST Act makes key changes 
to Federal loan and grant programs that will benefit both Gateway and 
other programs. The announcement of a Federal/State 50-50 funding and 
financing split and creation of the ``Gateway Development Corporation'' 
to deliver the program has been a significant step, as is the planned 
launch in April of the environmental process for the crucial Hudson 
Tunnel Project. Important those these steps are, major Federal funding 
is needed to advance the program, particularly ready-to-go projects 
such as the Portal Bridge replacement.
    Let me say in closing that we want to continue the trend of recent 
years, both by becoming more efficient and transparent, and continuing 
to reduce debt levels and improve ridership and revenue, while 
exploiting all opportunities to expand the reach of our service. As you 
saw just last week, there's a pent-up demand for rail passenger 
services. The inclusion of Amtrak in the surface transportation 
reauthorization creates an opportunity to address the great outstanding 
need for a dedicated and predictable source of funding.
    I say this because we all have an interest in ensuring that Amtrak 
continues to be as effective as possible, and that the American people 
in all regions of the country receive the passenger service they 
deserve. We are committed to embracing innovation that can help drive 
greater value for the American public and have started considering ways 
to respond to both the changing markets and needs of the nation, while 
taking the Committee's expectations into account. In doing so, we must 
make sure we don't compromise our ability to offer service efficiently. 
When I came to Amtrak, I knew I was leading a very special company--but 
my time there has proven to me, over and over again, that Amtrak is a 
national treasure, staffed by some of the best and most talented people 
in the rail business. That is something this Nation cannot afford to 
lose.
    During my tenure, I sought a Federal commitment for all of Amtrak's 
needs. The FAST Act has taken the critical first step by adding Amtrak 
and the intercity passenger rail program to surface reauthorization. 
But the key will be whether appropriations levels can grow over time to 
meet the major capital needs we have in the Northeast Corridor and 
across the company. While the realignment of the company into specified 
accounts has benefits, we also see risks, particularly in a constrained 
funding environment. We must be careful not to lose the economies of 
scale of a unified operation. One of the things I have learned in my 
eight years of service is that a unified system brings not just 
economies of scale, but a greater understanding of the value that 
Amtrak delivers for the Nation. We hope the FAST Act can help to build 
an even stronger network of support for intercity passenger rail 
service around the respective needs of our national network of state 
corridors and long distance services and the Northeast Corridor 
infrastructure and unifying those interested here in the Congress and 
across the country.

    Senator Wicker. Well, thank you very much. And thank you to 
all of our panelists.
    We are very pleased to note that 10 Senators have attended 
all or a portion of this subcommittee hearing. We are going to 
take questions, and at this point the order--I will go last, so 
at this point the order is going to be Senator Gardner, then 
Senator Booker, then Senator Ayotte. And others may be coming 
and going.
    But, Senator Gardner, you are recognized.
    Senator Gardner. Thank you, Mr. Chairman, and thank you for 
that order as well. I appreciate it. A lot of hearings today, 
so thank you.
    Mr. Klein--thank you to all of you for your testimony 
today--and you talked about the $25 million in grants-matching 
dollars that have been in support of the track repairs 
necessary to keep the Southwest Chief running. In order to 
secure the necessary funding, which could amount to the $200 
million that you talked about, more than just Federal funding 
is going to be needed and has been put forward. So could you 
talk a little bit more specifically about some of the 
contributions made from states and local governments in support 
of track repairs for the Southwest Chief?
    Mr. Klein. Yes, sir. Thank you. The first time when we 
started, you know, it was more of an effort between the State 
of Kansas and the State of Colorado, and that was with TIGER 
VI. And Garden City stepped up to the plate to be the applicant 
for it. And during that time, you know, we were learning about, 
you know, what were the needs and everything, but we were 
working along with Amtrak and Burlington Northern Santa Fe on 
how to reduce those dollar amounts.
    And during that time, you know, between TIGER VI and TIGER 
VII, Burlington Northern Santa Fe has come to the table 
tremendously because, you know, some of the freight has come up 
on their lines where they are going to cover a lot of those 
costs. And also within the state of Colorado the same thing 
except for a little short segment, you know, Raton Pass.
    New Mexico, you know, they are a different situation 
because they only have like one train that hits on a portion of 
that track, but when I was going through--when I see that video 
and I see what was going on there, that is train day every year 
in our area. I mean, people show up and just because it is a 
small town, you know, I am usually the guy that is up there 
speaking in my town. But they all show up. They love that 
train, you know. And it is for medical needs, it is for, you 
know, to go see their parents, to take their parents places. It 
is our lifeline.
    And I see a true partnership that, you know, I was real 
shocked. And I am a civil engineer. I was a highway guy. And 
when I first started this I thought, you know, wow, this is--
but they have changed me over, you know. I see it and I see the 
evolution. You know, like when my family and I went out to 
Chicago and we were able to leave union station and go a block 
over to hit the Brown line and get to our hotel. When I went to 
Kansas City and was able to get off and then walk up to that 
Power & Light or to get off at the train, you know, in Lamy and 
just a short commute over to the Santa Fe, and--it connects us 
all. And it has been a tremendous ride so far.
    Senator Gardner. And Kansas put in $1 million and New 
Mexico as well and Colorado from the states?
    Mr. Klein. Yes, sir, great point. You know, when we first 
started, you know, all three DOTs, you know, they came and 
said, hey, you know, great idea, do not have any money. Now, 
with TIGER VII, you know, TIGER VI, the State of Kansas did put 
out $2 million, between TIGER VI, TIGER VII, the State of 
Colorado. We started a Southwest Chief Tourism Infrastructure 
Mobility Commission, State commission, and we did get $1 
million out of them and also $1 million out of the State of New 
Mexico Department of Transportation.
    You know, as they get more educated in what the needs are, 
everybody comes to the table. Mora, New Mexico, has like 2,500 
people, and they put up $5,000, and they did not even have a 
stop but it was that important to them. And when I was at a 
meeting and I see how important that is to rural America, it 
made me continue on. And once we get this rail infrastructure 
done, it does not end. This is a lifelong journey now.
    Senator Gardner. It is pretty incredible to see the list of 
contributors, and like you said, there are three stops in 
Colorado but a number of communities contributed to this 
matching grant. I mean, when you see the city of Las Vegas 
right next to the City of Lamar, Colorado, contributing to the 
grant, that says something about the importance of this 
funding. So thank you, Mr. Klein, for being here and the 
passion which you have fought for the Southwest Chief and all 
of southeastern Colorado.
    Mr. Boardman, talk a little bit about some of the work we 
have been doing in Denver as well. The Union Station, last year 
we had a great sendoff of the Ski Train, kicked off again for 
the restart of the Ski Train for a weekend, two days. During 
that weekend it sold out almost immediately when they opened up 
the Ski Train from Denver to Winter Park ski area. And we have 
talked about trying to get it started for 2016, but there were 
some safety concerns that all parties involved with needed to 
be addressed before that were to be allowed again. Can you talk 
a little bit about the update on infrastructure improvements 
that will be needed to allow the Winter Park Ski Train to run 
again?
    Mr. Boardman. Sure. But can I stay on La Junta for just a 
minute?
    Senator Gardner. Yes.
    Mr. Boardman. So one of the things that also happened in La 
Junta--and now we are here for passenger rail--but it really 
preserved a freight route through Colorado, and that was good 
for the economy as well. So it was something that was 
important. And that is the partnership we do have with the 
freight railroads as we do have a symbiotic relationship.
    We want to get started again on the Ski Train, no question 
about it. Union Pacific--and I have talked to them directly 
myself--want that stop rebuilt, and I think that next month or 
May, April or May, I think DOT is going to make a decision on 
funding to get that built. And once we get that done, we are 
going to have a much better service going into Winter Park and 
we are committed to it.
    Senator Gardner. Thank you.
    Senator Wicker. Thank you, Senator Gardner.
    The other Cory, Senator Booker?
    Senator Booker. Member of the Cory Caucus, proud to be a 
member of the Cory Caucus in the Senate.
    Mr. Boardman, again, you and I have discussed the Gateway 
Project. I appreciate you mentioning it in your remarks. The 
project starts with replacement of the 206-year-old tunnels 
under the Hudson River, as well as the repair and replacement 
of the portal bridge over the Hackensack River. So I just want 
to sort of get you to comment for the record on the impact of 
this infrastructure in the New Jersey/New York economy. But 
that is actually the real heart of it. I would like to know 
what you think the impact is beyond New York and New Jersey. 
Why is this project important to the United States of America 
as a whole in terms of our overall economy?
    Mr. Boardman. Well, I think one of the things--thank you, 
Senator. One of the things that needs to be understood right 
away is what we really have in the Metropolitan area of New 
York City. It is the financial capital of the world. It does 
not have to stay as the financial capital of the world. There 
are others that would like that in London or Tokyo or some of 
the other places across the world. And the support and 
necessity to support that really comes from the ability to move 
people in and out in an efficient, effective manner. We are 
talking about 350,000 people or more that we need to move back 
and forth across the Hudson River every day.
    The Northeast Corridor, we handle over 750,000 people a day 
because it is not just Amtrak service. This is all the commuter 
railroads up and down the corridor. That corridor was 2 percent 
of the land in this country and is nearly 20 or 25 percent of 
the GDP in this Nation.
    The problem that occurred in July--and July was a turning 
point for me and for others--we could not operate the service 
because of power failures. And those power failures came from 
two cables, one in the south tube, one in the north tube, that 
provided the power necessary to operate the trains in and out 
of New York City. So people could not get to their jobs.
    And those jobs, whether they be in the financial services 
industry or insurance or just the need to operate a community 
like New York City are critical for this country and New York 
and New Jersey to maintain their tax base, to maintain their 
services, and to make sure that this country is globally 
competitive in the world.
    Senator Booker. And so the FAST Act, again, the partnership 
that I had with the esteemed Roger Wicker, can you describe how 
that is going to benefit the Northeast Corridor just for a 
moment?
    Mr. Boardman. Yes. Well, we hope it does. What we are 
really looking for here is a funding mechanism to get started 
on the improvements that are substantial cost: two new tunnels, 
two new tracks in addition to the station. We are looking at 
the private sector; we are looking at the Federal public sector 
in both states. And all have committed to that at this point in 
time.
    The FAST Act brings that all together in a way that we 
believe will allow us to create a pathway to financing it and 
at the same time that FAST Act recognizes across the country--
and these folks have been talking about it--the necessity in 
other places as well so that we can provide the--we as a nation 
can provide those investments, those capital investments and 
those operating investments necessary to maintain service 
across the country. The FAST Act does that.
    Senator Booker. In the little bit of time I have left let 
us shift real quickly to safety issues. How is the experience 
with Positive Train Control on the Northeast Corridor been 
going now that it is operational? And also, what progress have 
you made on the rest of the system? And what will it take to 
finish the job?
    Mr. Boardman. It is going very well. I think we have all 
sections on the main spine of the Northeast Corridor operating 
at this time with the exception of that which was commuter 
railroads we are responsible for, Long Island Railroad and 
Metro North. I believe we will complete the Keystone, which is 
the corridor from Philadelphia to Harrisburg, by the end of 
March where all the testing will be done. Everything is 
installed but the testing has to be finished.
    We need a schedule yet for the New Haven to Springfield 
line because we are reconstructing that into a double track 
with the State of Connecticut. We need a schedule with the 
State of New York where we are rebuilding the line between New 
York City and Albany, and both will be scheduled, I think, to 
be done in 2017. I just was talking a little bit to Tim early 
on. We are working with them to rebuild their 127 miles of 
track up in Michigan. That will be a little bit different, 
Positive Train Control, ITCS, which is not the same as we 
operate in the Northeast Corridor, but we are making very good 
progress.
    Senator Booker. I appreciate it. Thank you, Chairman.
    Senator Wicker. Thank you very much.
    Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I want to thank the Chairman and the 
Ranking Member.
    I wanted to, Mayor Ross, ask you about essentially in New 
Hampshire we have a project that is under consideration right 
now, and perhaps Mr. Klein could give us some advice as well on 
this. This is to extend commuter rail line from Lowell, 
Massachusetts, up to Nashua where I live and then on to 
Manchester. And so this is something that has been discussed in 
our state for a number of years by various leaders in the 
state.
    And I understand your role on the gulf coast rail service 
working group that you have been working with Federal partners 
to initiate a route for state-supported service from New 
Orleans, Louisiana, to Mobile, Alabama, and then as well as a 
route for long-distance service between New Orleans and 
Orlando, Florida.
    And so also when I heard Mr. Klein talking about the 
experience of getting the communities to support what you have 
done in La Junta along the way, if I could have you speak to 
what are the challenges and opportunities as you are expanding 
passenger rail service? What are some lessons that you learned? 
And what are the key factors that communities exploring these 
options should learn from the experience? Because you have got 
more than one state involved, you have got localities, you have 
got hopefully some Federal dollars that you can leverage, but 
then also there are State dollars that are needed and local 
dollars. So I wanted to get your thoughts on some lessons 
learned as our state looks at this kind of issue.
    Mr. Ross. I think the initial thing is having a group like 
our Southern Rail Commission--that is a three-state compact--
that we have people who represent each State's interests----
    Senator Ayotte. Yes.
    Mr. Ross.--because the three states that we work with have 
varying levels of support for what we do, and you run into that 
in each group of States. Louisiana has had very little support 
until their new Governor was elected, and now they are very 
supportive of what we do. Mississippi with Senator Wicker and 
Governor Bryant have been extremely supportive of us of late. 
And Alabama has been a challenge.
    And so we begin to work each one of those, and we use our 
commissioners to figure out who the partners are. And those 
partners can be the mayors, as Mr. Klein talked about. As you 
find those mayors, then they can easily call you and they can 
bring the parties to the table.
    We have also reached out to business leaders, and along 
that route in Mississippi, Alabama, and soon to be in Florida 
there is a lot of casino gaming that need to move their 
customers back and forth, and they are a very big partner and 
going to be a very big financial partner in what we do.
    So we begin to try to find the different sources of funding 
to be able to do that. So you put together a plan and you start 
to present it. So what we did is we had a feasibility study 
that we paid Amtrak to do, and so we found that the service was 
feasible. It is possible. And then we began to work with 
Senator Wicker and the others to put together the Gulf Coast 
Working Group or you put together----
    Senator Ayotte. When you say the services feasible----
    Mr. Ross. Yes.
    Senator Ayotte.--how much do you think you will have to 
subsidize?
    Mr. Ross. Well, the long-distance train came up with an 
initial subsidy of about $5 million. We could run both the 
long-distance train into Mobile and New Orleans for about $9.5 
million according to the--and those numbers were very 
conservative. I mean, they spent a lot of time trying to come 
up with and make sure that they were not really undershooting 
what they thought it would be.
    And so when we put those out there, people said, OK, we can 
work with that. We can work with our partners. They can begin 
to try to help make up the subsidy. And we educated our leaders 
on the benefits of it. And we really used the mayors because 
they see--they want opportunity. And it is just like what you 
are talking about. They want the connection.
    I was able to ride the Downeaster. I have ridden the 
Vermonter. I have seen the connection that your state has to 
have with Boston and New York. It just has to have it to bring 
the people out there and to bring the people back and for you 
to prosper and grow, for those people to have that opportunity. 
Not everybody is going to drive, not everybody in Boston has a 
car, and so they are going to get on at North Station and come 
to you.
    Senator Ayotte. Not everyone wants to sit in the traffic 
either.
    Mr. Ross. Absolutely correct. Absolutely correct. But it is 
starting with a large picture with like a Commission and then 
moving it down to the mayors and finding advocates. You find 
individual advocates like in Bay St. Louis you saw on the--you 
did not get a chance to see the film, but the first stop is a 
little town called Bay St. Louis.
    I called a lady named Nikki Moon there who owns a bed-and-
breakfast, and I said we need to have a party for this train 
for people to know that people support it. She said I am on it. 
She said why I am on this is I have a bed-and-breakfast that 
people from New Orleans will get on the train and they will 
come to my bed-and-breakfast and stay here. And she understood 
economics. You find those people and they work for you.
    Mr. Klein. And out in the West what I have found out 
everything is grassroots, right? And so I turned to Colorado 
rail to kind of see, OK, you know, what is out there and 
educated myself on it. And then we just took a map and we 
invited everybody in. That first meeting, everybody showed, all 
three states, county commissioners, mayors, city people. I was 
really pleased. By the end of the meeting we had chairmen 
within each of the three states, and then we started working as 
far as within each state to build out, you know, who are the 
users, you know, what groups need this train, why do they need 
this train. And what we found out was there was just a core 
group of people out there that was really concerned about the 
train leaving and what it meant to their qualities of life, you 
know, whether medical or whatever or just travel.
    Then you look for your champions. You know, in the State of 
Colorado there was a County Commissioner out of Pueblo County, 
Sal Pace. He was an ex-legislator and he opened up some doors 
and helped us create the State Commission. And same thing down 
in New Mexico, Bill Sabo from Colfax County, and a gentleman 
that passed on, Ford Robbins out of Santa Fe. And even as Ford 
was dying of cancer and he was waiting for the TIGER VII 
application to be accepted and approved, you know, and he did 
not see that, but you know, I know that up to his end that is 
what he was fighting for. And it is those type people that will 
make a difference, you know, in your efforts.
    Senator Ayotte. Thank you.
    Mr. Klein. And a guy named David Tenent from Seneca, I got 
to tell you, because he has educated me a lot as far as on the 
way rails and stuff has worked----
    Senator Ayotte. So like a lot of things, leadership really 
matters.
    Mr. Ross. Yes. Yes, absolutely. Absolutely.
    Senator Ayotte. Yes.
    Mr. Ross. You will see our Commission over the years I have 
been on it, depending on the leadership, depending on the 
state, it has everything to do with its effectiveness.
    Senator Ayotte. OK. Thank you.
    Mr. Ross. Absolutely.
    Senator Ayotte. I appreciate it.
    Senator Wicker. Thank you, Senator Ayotte.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. 
Thanks for holding this important hearing.
    So I thought I would start with a few questions here for 
you, Mr. Boardman. We have had some huge issues in the past, as 
you know, with on-time service of the Empire Builder, which is 
the big train that goes across the empire of Minnesota into 
some other places as well. And I remember in 2014 you said that 
the Empire Builder or Amtrak at least said was arriving on time 
under 20 percent of the time, which was really unfortunate for 
ridership. I know it has improved. And do you know what the 
current on-time performance of----
    Mr. Boardman. I think--excuse me--but the last time I 
looked it was 55 to 60 percent. Is it better than that now, do 
you know?
    Unidentified Speaker. For the first quarter, yes.
    Mr. Boardman. OK.
    Senator Klobuchar. OK. And how did it improve?
    Mr. Boardman. Well, because we are not hauling as much oil 
up there----
    Senator Klobuchar. Right.
    Mr. Boardman.--or the NSF is not hauling as much oil, it 
was really running into a real capacity problem----
    Senator Klobuchar. Right.
    Mr. Boardman.--for the NSF.
    Senator Klobuchar. Do you think there is a way, if they 
start hauling oil more, which would be great for them and----
    Mr. Boardman. Well, they have----
    Senator Klobuchar.--but if they start doing that, do we 
have a better plan? Now, I know they built some more tracks and 
things.
    Mr. Boardman. Yes, they made a lot of investments up there, 
and we believe we will not have that kind of a problem----
    Senator Klobuchar. OK.
    Mr. Boardman.--existing again.
    Senator Klobuchar. OK. Well, that is great to hear.
    I wrote to you last fall about some concerns about the 
decision to eliminate the full-time station agent position in 
Winona, Minnesota, and it is the second busiest in our state 
only behind the St. Paul-Minneapolis station. And it serves as 
a critical access point to the Mayo Clinic. And I know you 
moved forward with the decision to staff the station with a 
part-time employee, which we really appreciate. Can you assure 
me that the staffing change will not negatively impact services 
at the station? And are we going to continue with this at least 
partial staffing?
    Mr. Boardman. So we have really run into some headwinds at 
Amtrak. We are down from revenue now over $120 million that we 
expect this year, maybe as much as $130 million. So we are 
looking everywhere we can----
    Senator Wicker. Why is that? Why is that?
    Mr. Boardman. Well, I think there are several reasons, 
Chairman. I think part of it is a real drop in oil price and 
people have moved back to their cars. I think that there is a 
general slowdown in every mode. I see it in the bus systems at 
this point in time. A recent article came out saying mega buses 
actually hit the top of where they really were and they started 
down. We are even wondering on aviation, and aviation right now 
within the big airlines that you have today are globally 
spread.
    So I have been looking at what are the costs on the 
Northeast Corridor and what is--we are seeing a drop in 
ridership and revenue, and we are trying to compare that 
because we compare very favorably to competing with the 
airlines. We have about 77 percent of the service between New 
York and Washington.
    And what I found was something interesting with airlines, 
what they can do. And I do not know if it is happening yet, but 
since they have their commercial accounts with business, they 
can provide a discount globally across the sea for the business 
and yet tell the business that they need to continue to provide 
a certain number of seats that they buy in a different market, 
which might be the Northeast Corridor. So I am trying to see 
whether that is affecting us as well. But those are basically 
the things that are happening to us in terms of revenue.
    Senator Wicker. OK. Well, thank you, Senator Klobuchar, for 
letting me interject there. And that certainly will not be 
taken from your time.
    Senator Klobuchar. Oh, no, that is OK. I just had one more 
question, Mr. Chairman.
    Mr. Hoeffner, speaking of funding that we were just talking 
about with Mr. Boardman, the FAST Act authorized $997 million 
from Fiscal Year 2016 through 2024 Federal-State partnership 
for what we call the State of Good Repair Grant Program 
designed to improve critical rail assets with a backlog of 
maintenance. This is not quite the issue Mr. Boardman was 
getting into about use but this is about maintenance. Can you 
talk about the importance of this funding?
    Mr. Hoeffner. Yes, this is actually very critical to the 
operation of the system because what it does is, you know, 
getting to a state of good repair, getting to a state where the 
equipment and the infrastructure has the capacity, has the 
ability, that you are not on the track structure side 
constantly battling slow orders because of tie conditions on 
the train control system, like Joe mentioned earlier, on the 
power into the tunnels for the Northeast Corridor, you are not 
dealing with power outages. Therefore, the operation of the 
trains, but for the train control system, you are not dealing 
with pipes freezing on the coaches in the winter, you are not 
dealing with traction motors blowing because of the ingestion 
of snow in northern climates.
    So, you know, there is a whole factor. When you talk about 
on-time performance, most of the time we talk about it relevant 
to the freight rails and the dispatching and everything of the 
train, but there is a huge component of that goes along with 
the infrastructure and the equipment. So we see this as 
critically important at being able to improve the reliability.
    You know, it is deplorable when we talk about on-time 
performance of 20 percent, 50 percent, you know, so these are 
all things that help move that bar up in addition to the 
capacity issues.
    Senator Klobuchar. OK. Thank you very much.
    Senator Wicker. Thank you, Senator Klobuchar.
    Senator Moran?

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much. 
Gentlemen, thank you for being here.
    I want to visit just briefly with Mr. Klein and Mr. 
Boardman about the Southwest Chief. Let me first of all thank 
you for your efforts in support of what I consider a useful, 
valuable route to Kansans and folks in Colorado and New Mexico.
    Mr. Klein, you indicated in your testimony a few years ago 
that the future of the Southwest Chief was in doubt.
    Mr. Klein. Yes, sir.
    Senator Moran. And I hoped that you would soon tell me that 
something is more optimistic than what you thought a couple 
years ago. Part of that, I would assume, is that we have been 
successful in two rounds of TIGER grants in support of the 
Southwest Chief. My understanding its efficiency is beginning 
to improve, safety concerns are being reduced, and presumably 
good things are happening. And so I just would like you to give 
me an update on your thoughts, and maybe you did this in some 
of your testimony.
    And then, Mr. Boardman, my only question for you is what is 
the plan for implementing PTC, Positive Train Control, in 
regard to the Southwest Chief in that line?
    Mr. Klein, Mr. Boardman?
    Mr. Boardman. Go ahead, Rick.
    Mr. Klein. Yes, Senator Moran, we could not have done it 
without your support. And thank you because, you know, it takes 
that type of leadership to get everybody on board. And dealing 
with Matt Allen out of Garden City--and he respects you very 
much.
    Senator Moran. Mr. Klein, I do not know you, but thank you 
very much. I was not expecting the complement.
    Mr. Klein. Yes. You know, I was hoping to meet you.
    And, you know, with the TIGER VI and TIGER VII and, you 
know, we have reduced $100 million needed of rail improvements 
down to $38 million, but that is also working with Burlington 
Northern Santa Fe to increase that.
    Now, the other $100 million, that was needed for the 
continuing maintenance, Burlington Northern Santa Fe has 
stepped up, you know, the State of Kansas. They do not want any 
money from them because of the freight that pays for the 
maintenance of it. And a lot of that in Colorado, too, except 
for a real small sector.
    And as we move forward, you know, we will need a TIGER 
VIII, you know, and then just a little bit of a TIGER VII, you 
know, but it depends on, you know, what happens with the gas 
prices and everything, you know, because, you know, one of the 
things that I will start next week is going down into New 
Mexico and starting to get an applicant for TIGER VIII and to 
finish off this endeavor. And, yes, sir, I----
    Senator Moran. Do you expect it to be a problem?
    Mr. Klein. No, sir.
    Senator Moran. OK.
    Mr. Klein. Because, you know, what I have found is 
dedicated people in all three states, and they want to get this 
job done. And they have given me the hope that it will be done, 
and I feel real confident now. And just like when we are 
talking with the Federal Railroad Administration or any of 
Amtrak, Burlington Northern, or any of the communities, failure 
is not an option. We will get this done. And that way we are 
part of this great nation and connected to this national 
network not only long-distance trains but also the subways and 
the bus systems within the cities across this Nation.
    Senator Moran. Thank you for your leadership, sir.
    Mr. Klein. Thank you.
    Senator Moran. Thank you, Mr. Chairman.
    Mr. Boardman. Senator?
    Senator Moran. Sir, Mr. Boardman?
    Mr. Boardman. Senator, I was just checking myself here, but 
the host railroads are responsible for Positive Train Control 
on track that we do not either own or control, and that is one 
of them. As a matter fact, I am not sure that particular 
section requires it under the regulations right this minute. We 
will get you a written answer back on that.
    Senator Moran. And we will raise that question then with 
the NSF as well. Thank you, sir.
    Mr. Chairman, thank you.
    Senator Wicker. Mr. Klein, Senator Moran will be available 
afterwards for autographs and pictures.
    Mr. Klein. Thank you very much.
    Senator Wicker. Without objection. Senator Blumenthal 
followed by Senator Daines.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman. And thank you 
to all of the witnesses here today for your work on this 
supremely important issue. Thanks to Mr. Boardman for your 
service to Amtrak over many years and your service to the cause 
of transportation.
    I agree with you completely about fixing the Hudson, making 
sure that tunnel is workable, important not only to New York 
and its financial district but really to the whole Northeast 
Corridor. And so I agree completely that it is an urgent 
project.
    The State of Connecticut, as you know, is working closely 
with Amtrak to complete the Hartford line, which is an expanded 
and dramatically rebuilt railroad facility between New Haven, 
Springfield, and other parts. This line will create a huge 
number of jobs and make it easier for commuters to get across 
Connecticut and travel through New England. It will nearly 
triple the rail traffic and reduce trip times. It is a project 
that needs to be completed. It needs to be completed as soon as 
possible. There is simply no question about it.
    Amtrak has a unique and outsized role in this project, and 
you own the rail line and exercise enormous control in 
construction management. So Connecticut, with very limited 
control, is depending on Amtrak to do its job here. Connecticut 
taxpayers will largely pay for the line and will use it.
    So what we have is a massive undertaking with a budget of 
nearly $574 million, and of course that number reflects some 
cost overruns, as you are well aware. Many will be borne by 
Connecticut residents well beyond the initial cost of $365 
million. And the deadline for completion has slipped from 2016 
to 2018.
    I know that we have engaged in many discussions. They have 
been productive and important, and your team is certainly 
receptive to suggestions made by our delegation and our 
Governor. I want to thank you and Secretary Foxx for meeting 
with us earlier this year and your continuing dialogue with us.
    It seems like such a simple, basic solution to complete a 
project like this on budget by a certain date, which Amtrak has 
now agreed to do. Should this not be standard practice for all 
Amtrak projects in all states, and can you assure us that this 
budget and this timetable in Connecticut will be met?
    Mr. Boardman. Yes, it should be standard practice, Senator. 
It has not always been standard practice, and do not ask Tim 
any of that right now either with Michigan. So we have had our 
challenges there as well. We have improved the way that we are 
handling that. I believe our new chief engineer is very 
different in his focus and his effort to get this delivered, so 
I am confident that we will get it delivered.
    And actually, I am confident that things are going pretty 
well because I was at a speaking engagement last week with Jim 
Redeker and he was cordial, so I think we are OK right this 
minute.
    Senator Blumenthal. We will know it is really working when 
he is more than just cordial, when he actually gives you a slap 
on the back and----
    Mr. Boardman. Well, he was smiling, yes. Yes, sir.
    Senator Blumenthal. Well, but very seriously, I hope we can 
have your continuing oversight here----
    Mr. Boardman. Yes, sir.
    Senator Blumenthal.--in the time that you have remaining 
because it is so critical that this project remain on track, 
and I assume that you believe that there is every indication 
that it will be moving forward on the timetable and budget that 
has been set?
    Mr. Boardman. Yes.
    Senator Blumenthal. And that you will continue to make your 
voice heard in this project?
    Mr. Boardman. Yes.
    Senator Blumenthal. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Blumenthal.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman. And thank you all 
for testifying today. I am truly grateful, as a guy from 
Montana, to hear your rural perspectives.
    And as mentioned in the testimonies, Amtrak does not just 
leap from one urban area to the next. Rather, it connects 
communities in between urban centers. Connecting Chicago to 
Seattle and Portland, the Empire Builder runs approximately 660 
miles across Montana. In fact, that was the stop in Shelby, 
Montana, that my ancestors went back and forth when they came 
out to Montana from Minnesota, on the Empire Builder. And they 
connect to 12 rural Montana communities. In fact, last year, 
the equivalency of 1 in 10 Montanans boarded and alighted the 
Empire Builder. So I think it is imperative that we continue to 
move these passengers in a safe and efficient manner.
    Mr. Boardman, the recent FAST Act is the longest surface 
transportation bill that Congress has produced in 17 years, and 
it finally provided some certainty to the people of Montana. It 
required Amtrak to report on station development, and Amtrak 
has previously completed a feasibility study that indicated 
reinstating the Empire Builder stop in Culbertson, Montana, and 
that would have a net positive financial impact overall on the 
financials. And in light of that rural state set-aside, what 
efforts has Amtrak made to work with the Culbertson 
stakeholders?
    Mr. Boardman. Specific efforts I cannot testify to right 
now, Mr. Daines. However, I understand your interest, and we 
will work with you and with them to make sure this gets done. 
And maybe the Chairman can even tell you that we worked with 
him on a stop as well on his route. It is just going to take a 
little longer to connect all the dots.
    Senator Daines. Yes, well, thank you. And I know somebody 
who takes the responsibility very seriously to manage the 
taxpayer dollars and be a steward of such. We have looked at 
the numbers as actually financially attractive to consider 
that. It is a net positive. They already have the 
infrastructure, and the train passes through it already at 
ideal times. And so my request would be if we could get the 
Amtrak staff to visit local leaders so they could really hear 
directly from the leaders there to modernize the existing 
station or perhaps a new building as you complete the study. So 
at least we can have that commitment to have a face-to-face 
meeting. That would be, I think, a positive step forward.
    Mr. Boardman. May I ask a question back?
    Senator Daines. Yes.
    Mr. Boardman. Have you been told that my folks have not met 
face-to-face with them?
    Senator Daines. We know they are working on it. We would 
just like to get an update and get that face-to-face meeting 
there in Culbertson.
    Mr. Boardman. Well, if they have not, they will.
    Senator Daines. That would be helpful. Again, the nature of 
rural communities, sometimes we are a long way away from 
airports. That is why the rail is so important to us.
    Mr. Boardman. Yes, sir.
    Senator Daines. And we would just like to have that face-
to-face with you if we could. So thanks for that commitment to 
that. I really appreciate it.
    One more question, Mr. Boardman. The recent FAST Act also 
established a 25 percent rural set-aside for rural 
infrastructure and safety improvements, and many communities 
already have these shovel-ready projects. Can you give me some 
thoughts around how Amtrak is working as a facilitator between 
these rural communities, rural Montana communities, and the FRA 
to ensure successful grant application, as well as project 
execution?
    Mr. Boardman. I am not aware of them, but we will check 
into it and I will give you a written response.
    Senator Daines. OK. That would be appreciated as a follow 
up on that. Thank you.
    For Mr. Hoeffner, the Midwest Interstate Passenger Rail 
Commission, which you chair, includes half the states the 
Empire Builder passes through. We all benefit when the Empire 
Builder runs efficiently. How has the commission engaged the 
other states?
    Mr. Hoeffner. We have not directly engaged all the states 
that are involved in the Empire Builder. We have been focusing 
on the states that are a part of the Commission. We would be 
more than happy to reach out and talk with the additional 
states. One of the things we have right now going on is the FRA 
has a regionally led planning study that they have selected the 
Midwest as one. It is meant to be kind of a test case on how to 
put together, how to develop and implement things. So we would 
be more than happy to talk with additional states on how they 
can support. And, you know, we are focused on the Midwest----
    Senator Daines. Right.
    Mr. Hoeffner.--but we would be more than happy--we have, 
you know, involvement from other states on an ad hoc basis so--
--
    Senator Daines. Well, that would be great. We would 
appreciate, you know, a Northwest kind of discussion, too, 
given that it is a bit Midwest-centric, and we welcome that 
kind of dialogue as well.
    So for the whole panel, you have all had successful 
experiences with interstate working groups. What advice might 
you have for other states who want to see similar developments? 
I am about out of time here, maybe get a comment from somebody 
on the panel.
    Mr. Ross. Ours has worked very well because it comes from 
the Governors of each state, and they appoint them. And we have 
some congressionally led power. We are an animal of the 
Congress, and we were established by Congress. It gives us some 
additional standing. And I think that is very important, and so 
it pushes us to work within all of our states to make sure that 
everybody is represented and everybody does, and also gives us 
additional leverage when we talk to our Senators and 
Representatives in Congress because we can take TIGER grants, 
we can do things ourselves. We can go above the individual 
State Departments of Transportation and those sorts of things, 
and it makes it much easier for us to work and to do things and 
to work directly with Amtrak, work directly with different 
people because we are not an animal of our individual states. 
And that makes it a lot easier for us to work.
    Mr. Hoeffner. MIPRC is also the same. We are a nine-state 
compact. But it is also important, as we are hearing here 
today, that we not only have the state-level government but we 
also have that local commitment. The stations are the gateways 
to these communities, to and from these communities, and it is 
important for the community to have ownership in that so----
    Senator Daines. Yes.
    Mr. Hoeffner.--it has to work at all levels.
    Senator Daines. Well, I appreciate it. And just for 
perspective, Montana is a state, and we are not as big as Texas 
and Alaska, but you can put Chicago in one corner of our state 
and Washington, D.C., in the other. So that is when I think 
about the coverage and what I appreciate about Amtrak is that 
we have a lot of Montanans, first, who live a long way away 
from an airport but live close to a rail station. Second, they 
can afford a rail ticket and cannot afford a plane ticket. And 
so thank you for bringing that connectivity for rural America.
    Yes?
    Mr. Klein. Senator Daines, you are exactly right. You know, 
same thing in our area. You know, we have to travel a long 
distance to get to an airport, and a lot of them do not have 
the ability to get out of the region to do that.
    Senator Daines. Right.
    Mr. Klein. Get your champions, you know, make sure you have 
everybody, educate yourself, and once you get, you know, 
everybody and respect where they are coming from, you know, 
whether that is at Federal, State, local levels, but educate 
them and talk with them and be open and honest.
    You know, I thanked Mr. Boardman for one of the first 
times--well, the first time I met him and his honest dialogue 
about the endeavor that the City of La Junta was about ready to 
embark on, and he gave me the confidence to move forward.
    But I have run into great champions in all three states, 
and, boy, I wish I could list them all because they are just 
great people, and they are rural people, and they are the heart 
of this Nation and they deserve to be a part of it.
    Senator Daines. You said it well. Thank you.
    Mr. Ross. May I make one additional comment that I think is 
very important?
    We also make sure that our policy advisers are 
transportation for America, and once we hired them to help us 
craft our message and figure out where things are and to work 
with individual Members of Congress has made a huge difference 
for us is having someone who is knowledgeable.
    Senator Daines. Thank you.
    Senator Wicker. Thank you, Senator Daines.
    I think it is remarkable that we have had 10 Senators 
participate in this subcommittee hearing. And I have waited 
until last to say my piece.
    I think we should probably note the presence of Mayor John 
Robert Smith in the hearing today. Mayor Smith served as mayor 
of Meridian for a number of years before retiring. He has been 
a tremendous advocate for passenger rail over time and is 
president of transportation for America. So, John Robert, nice 
to have you here.
    And then I would not want this hearing to pass without 
acknowledging the great contribution over time of Gil 
Carmichael to the issue of passenger rail. Gil is a longtime 
friend of mine also from Meridian, Mississippi, and served as 
Federal Rail Administrator, among many other capacities. He 
passed away in just the last few weeks, and we miss him in the 
passenger rail advocacy community and we miss him in 
Mississippi.
    He was a Coast Guard hero back as a youth. They made a 
movie about a rescue that he was part of called The Finest 
Hours, and he was supposed to join me and others at the 
premiere of this movie but was too ill to come, so we want to 
acknowledge Gil Carmichael also.
    Briefly, Mayor Ross, what is the relationship between the 
Southern Rail Commission and the Gulf Coast Working Group?
    Mr. Ross. We are a member of the Gulf Coast Working Group. 
We are----
    Senator Wicker. How many members are there in the working 
group?
    Mr. Ross. There is probably about 20. I do not remember the 
exact number because there was not any limit set. We have 
members from all the states from Florida to Louisiana.
    Senator Wicker. OK. And what is your charge and when are 
you supposed to get back to us?
    Mr. Ross. Our charge is to bring back to you a plan to 
restart service on the gulf coast, and we are supposed to do 
that within 9 months. And I think that ends up being in 
September.
    Senator Wicker. And I think you told me the other day that 
you feel you are off to a good start?
    Mr. Ross. Yes, very good. We have----
    Senator Wicker. You had one meeting----
    Mr. Ross. We had our opening meeting----
    Senator Wicker.--and that was in New Orleans?
    Mr. Ross. Yes.
    Senator Wicker. How did that go?
    Mr. Ross. It went very well. CSX was in attendance. Most of 
our members were able to come either in person or by phone. We 
selected the routes that we wanted to study, which was a long-
distance train, extending the City of New Orleans from New 
Orleans to Orlando and then also looking at what the additional 
capital costs would be to be able to run a second train between 
New Orleans and Mobile.
    Senator Wicker. And so the figures that you were giving in 
testimony earlier----
    Mr. Ross. Right.
    Senator Wicker.--are the capital costs?
    Mr. Ross. No, those are the operating costs.
    Senator Wicker. Those are the annual?
    Mr. Ross. Right.
    Senator Wicker. So remind us again of that.
    Mr. Ross. The estimate for the extension of long-distance 
train would be $5.5 million, and then to add the additional 
State-supported train between Mobile and New Orleans would be 
an additional about $3.5 million.
    Senator Wicker. And, Mr. Boardman, what do you think about 
those numbers? Have you had a chance to look at those?
    Mr. Boardman. I have not. I have not, but they sound 
reasonable at this point in time.
    Senator Wicker. OK. Mr. Boardman, would you agree that our 
previous experiment with Amtrak across the gulf coast, though 
desirable, was not an overwhelming success? Would you 
acknowledge that?
    Mr. Boardman. Well, because of the time that it took in 
comparison to the automobiles, I think that had something to do 
with it, but yes.
    Senator Wicker. OK. Well, so what should make us optimistic 
about our endeavor now?
    Mr. Boardman. Well, one thing, the outpouring of interest, 
but I have to tell you that the demographics of our country is 
changing and for a lot of reasons. Some of it came up today 
that people are willing to be on trains today and have Wi-Fi 
and be entertained differently than they did in the past. We 
have a lot more folks that are getting to be my age and older 
that look at this as a way that they do want to travel for the 
future. I think there are people now today that begin to 
understand the necessity to maintain the connection, the 
mobility necessary for us to have that mobility for the future. 
And once it is gone, it is gone.
    So I do not think until you came along, Senator, and the 
Southern Rail Commission and Governor Brandt, I do not think 
anybody had hoped that this would ever return. And it is 
returning. It is something that is going to happen, I believe. 
And people will be positive about that.
    We will need to be on time of what we say we are going to 
do. If we cannot be on time--and a large part of that is with 
the relationship we have with CSX. If we cannot be on time, it 
probably will not work. We have to keep it on time.
    And we today have a couple of things in front of the STB to 
ensure that we continue to have preference as a passenger 
service as opposed to freight. That has always been the case. 
We have not liked the definition that the STB came up with, a 
new definition that really needs to be going back to the 
definition that has always existed, and that is passenger 
railroad has preference. And so we are looking for that 
decision from the STB.
    Senator Wicker. And when might you get that decision?
    Mr. Boardman. I do not have a date in front of me, but also 
I do not have a date that they will actually decide it. We just 
put in our last submission the 22nd, I think, Monday.
    Senator Wicker. But the question is currently pending?
    Mr. Boardman. It is pending.
    Senator Wicker. Well, what advice do you give Federal 
leaders and State leaders in determining, based on the 
information we are going to get from this working group and the 
Commission, determining whether this is going to work or not?
    Mr. Boardman. Well, my advice has been for a considerable 
period of time is something you have already done, which is put 
this in the Surface Transportation Bill. So we talk about the 
needs for whether it is highways or whether it is buses or 
whether it is transit systems or whether it is intercity rail 
all in the same bill for the future. And while we would like to 
see higher levels of authorization--and one of the things I 
failed to do and would like to put into the record if I can is 
a thank you to Senator Booker for the work he did just on the 
RRIF loans where he really hung out there to make some changes 
on that, and that is going to make a difference to everybody in 
this passenger world and in freight railroads to make 
improvements in the infrastructure.
    So my advice to the Federal level is to continue to have 
authorizations as a transportation trust fund if we could get 
there so that local communities like those that have really 
stepped out here can really have an impact on making sure that 
that mobility and that service continues for the future.
    Senator Wicker. Well, when you look at the current 
population of the gulf coast areas from New Orleans over 
through the four stops we would have in Mississippi and then 
Alabama and Florida, have areas with similar density of 
population been able to make a success of this?
    Mr. Boardman. It depends on, Senator, very straight to you 
what do you define success? And I remember the first time I met 
you, you were not sure I was going to carry out what you want 
me to get done, and I committed to you that I would do that as 
a commitment----
    Senator Wicker. Thank you.
    Mr. Boardman.--because it was important that our nation 
said that we should do that. That was a law. Our nation said we 
should run a national rail system. The people on the gulf coast 
are just as important as the people that were being talked 
about here in Montana, and there are more of them down there. 
Running through Montana is a success. We provide that service. 
It is mission-oriented as opposed to efficiency-oriented.
    It does not mean it should not be efficient, but today, in 
the world that we live in, when you run something like a 
business--and I made that statement a while ago--a business has 
a responsibility to turn a profit, yes, but if a business is 
also charged with helping the communities that it operates in, 
then it is successful if it does that. And part of the business 
of Amtrak is that it needs to be partly funded by the United 
States, not just by three states, six states, four states, one 
state or by the Northeast Corridor.
    But the United States of America said in 1971 that they 
were going to relieve the railroad industry from their money-
losing passenger service, but they have continually said that 
we as a nation want you, Amtrak, to run a national service. 
That is part of a national service, and it should be connected. 
It has to be supported. And the people there are going to be 
supported and are going to have that mobility.
    Senator Wicker. You know, Mr. Boardman, I have been looking 
at transportation issues for a long time. I was a very lowly 
staffer on Trent Lott's House staff back in the 1980s when the 
House and Senate were wrestling with the issue of the 
Tennessee-Tombigbee Waterway. And we insisted as a country that 
a cost-benefit analysis be done. And I will have to say, as a 
longtime supporter of the Tenn-Tom, I think the numbers were 
favorable then and they have turned out to be much better than 
that.
    When we do cost-benefit analyses of passenger rail as 
opposed to cost-benefit of highways or ports or airports, are 
we always comparing apples to apples or is there some help you 
can give us--pardon me--in figuring out whether the cost of 
what we are thinking about doing on the gulf coast or 
elsewhere, whether it is a good investment for the taxpayers? 
Because that is a question we have to ask in these tough times.
    Mr. Boardman. I am not the economist or the thinker. I will 
tell you, if you take your left hand and turn around and look 
at the kid named Matt behind you, he is somebody who does think 
about a lot of those things. He worked over at Amtrak. And we 
do have people that----
    Senator Wicker. We are glad to have smart folks behind us, 
I will tell you.
    Mr. Boardman. Yes. And we had smart--and I am glad he is 
over here, but I was sorry to lose him and still sorry we lost 
him. Those are the folks that can help answer some of those 
questions. And yes, we can help you. It might not be me that 
does that.
    Senator Wicker. Mayor Ross, you have the last word.
    Mr. Ross. Well, there are two things. Number one, when you 
talk about a cost-benefit analysis, you really have to bring 
in--a lot of times you just look at what happens around the 
station, for example. I know Mayor Smith makes a great talk 
that he has given a hundred times about the spinoff investment 
from the station he built in Meridian. I am sure you have heard 
it. But you have to look at more than that. And I think I go 
back to the example I was giving of Bay St. Louis, and I talk 
about Nikki Moon who has owned her own business and she sees 
that she can bring additional people to her town. And those are 
a little bit harder to quantify, but they make a huge 
difference to these smaller cities, that people can get there.
    And when we went through Live Oak, Florida, we met the 
government of Live Oak, Florida, in New Orleans. I happened to 
run into them at breakfast and said who are you people? And 
they said, well, we are here to ride the train. I said really? 
Where are you from? Live Oak, Florida. They said we want to 
stop on this thing. And so we talked to them as they go along, 
and we go through this very small town that had hundreds and 
hundreds of people lining the tracks saying we want this train. 
We want to be a part of the Nation. We want to be a part of 
things. Those things are little bit harder to quantify, but you 
can. You can go to those individual places and you can see what 
the business and the business that that train brings to that 
town.
    It is much like, on another example, you guys put together 
a package for Katrina, CDBG. I got a good bit of that money 
outside the coast. And your expectation of me is that I invest 
that money in my town so that there is a business spinoff 
effect so there is return for the Federal taxpayer. And we have 
tried to do that. We invested our money in places where it 
invested in spinoff private investment. It is going to generate 
tax dollars that will come back to the State, local, Federal.
    I do not think it is any different, any different from 
passenger rail. If you are investing in a passenger train --let 
us just take the coast train, for example--your expectation 
should be that there is a spinoff, private spinoff effect. That 
is what your expectation should be in Bay St. Louis, in 
Gulfport, in Biloxi, in Lake City, Florida, in Chipley, 
Florida. And I think that is the same expectation that these 
people have.
    Senator Wicker. And Pascagoula.
    Mr. Ross. Pascagoula, Biloxi, let me hit them all, you 
know, Pagosa Springs. And that is the expectation. And I 
thought that was what was so interesting about every place we 
went through is that it was not just the business leaders, it 
was not just the government guys. It was your everyday people 
that came out there.
    And you cannot pay them. I joked with the president of 
Hancock Bank. I said, what did you do, get all the people that 
were 60 days overdue and tell them you would give them an extra 
30 if they would come out to the train? He said, no, I do not 
have that many people that are behind. And these people 
understand the benefit that it brings them.
    And some of it is not quantifiable. Some of it is just that 
my grandmother can get on the train--an example. I rode the 
City of New Orleans from Jackson to New Orleans for a meeting. 
Well, when we started our trek across north Florida to meet 
with all these mayors, I got off the train with this 
grandmother from Fulton, Kentucky, who was meeting her 
granddaughter in New Orleans. That is the only way she could 
get there. I mean, she cannot ride a bus. She can ride a train.
    Senator Wicker. And that happens all over the system.
    Mr. Ross. Yes. Right. And I think, yes, we can quantify 
some of this. I mean, I can do that. I mean, people can do it. 
But then you have the other unquantifiable part is that you 
have people that this is the only way they can get there. It is 
the only way.
    Senator Wicker. Well----
    Mr. Ross. And they deserve a way to do that.
    Mr. Klein. Senator Wicker?
    Senator Wicker. They are going to get the hook out in a 
minute----
    Mr. Klein. OK.
    Senator Wicker.--and jerk me out of here.
    Mr. Klein. The first hard structure in our community when 
it was built was the railroad station, and it fueled the 
economic development of the City of La Junta and the 
communities in the West, as it does today, and that is what you 
would find in your communities is the history and that 
dedication, you know, because the railroads followed the Santa 
Fe Trail and they are just as important today as it was when 
the City of La Junta was first started. And I bet you all the 
other towns will say the same thing.
    Senator Wicker. Well, look, thank you all for your 
testimony. We will allow members of our panel to supplement 
their testimony and you will be given that opportunity. There 
are certainly intangibles that you mentioned, but let me just 
say to you, we need to make the numbers work to give our 
colleagues and give the taxpayers and voters of this Nation a 
comfort level that our money is being spent and that the cost 
does bring a valuable benefit.
    So thank you very much, a remarkable hearing and good 
participation, a wonderful panel. Thank you all.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Dean Heller to 
                           Joseph H. Boardman
    Question 1. It is my understanding that the Las Vegas Railway 
Express Inc. submitted a proposal in January of 2015 which would 
authorize charter type passenger service from Los Angeles Union 
Station, California to Las Vegas, NV. This proposed service, called ``X 
Train'' would run roughly eight specialty charter runs per year 
scheduled around special events in Las Vegas such as the major sporting 
events, holidays, and trade shows.
    What is the status of that application?
    Answer. This application was originally submitted in January of 
2015, was modified in August 2015, and resubmitted again in January of 
2016. It is my understanding that that Las Vegas Railway Express has 
not received any written response from Amtrak regarding when the review 
process would commence.

    Question 2. What has prohibited Amtrak from beginning the review 
process?
    Answer. Amtrak has been reviewing the various proposals from Las 
Vegas Railway Express (LVRE) and currently is working with LVRE on the 
latest application for a round-trip pilot train. The process was 
delayed by incomplete and changing information on the original and 
subsequent movement requests. As of March 2016, we have sufficient 
information to process the LVRE request for the pilot train. Since 
then, in addition to working with LVRE, we have been working with the 
host railroads (Union Pacific and BNSF) involved to develop an 
operating plan. Pending the approvals from Union Pacific and BNSF 
railroads and the completion and execution of a contract with LVRE, 
Amtrak anticipates operating the pilot train by late July. The pilot 
train will enable both Amtrak and LVRE to evaluate the operational 
issues which will be useful for any discussions about future trips.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
